<html>
<title> - A NEW STRATEGY FOR ENHANCED PARTNERSHIP WITH PAKISTAN</title>
<body><pre>[Senate Hearing 110-691]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 110-691
 
                      A NEW STRATEGY FOR ENHANCED 
                       PARTNERSHIP WITH PAKISTAN

=======================================================================


                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 25, 2008
                               __________


       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
              http://www.gpoaccess.gov/congress/index.html



                   U.S. GOVERNMENT PRINTING OFFICE
46-262 PDF                  WASHINGTON : 2008
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free(866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, 
Washington, DC 20402-0001


                COMMITTEE ON FOREIGN RELATIONS          

           JOSEPH R. BIDEN, Jr., Delaware, Chairman          
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
JOHN F. KERRY, Massachusetts         CHUCK HAGEL, Nebraska
RUSSELL D. FEINGOLD, Wisconsin       NORM COLEMAN, Minnesota
BARBARA BOXER, California            BOB CORKER, Tennessee
BILL NELSON, Florida                 GEORGE V. VOINOVICH, Ohio
BARACK OBAMA, Illinois               LISA MURKOWSKI, Alaska
ROBERT MENENDEZ, New Jersey          JIM DeMINT, South Carolina
BENJAMIN L. CARDIN, Maryland         JOHNNY ISAKSON, Georgia
ROBERT P. CASEY, Jr., Pennsylvania   DAVID VITTER, Louisiana
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
              Antony J. Blinken, Staff Director          
       Kenneth A. Myers, Jr., Republican Staff Director          

                             (ii)          




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator From Delaware...........     1


Boucher, Hon. Richard, Assistant Secretary for South and Central 
  Asian Affairs, Department of State, Washington, DC.............     5

      Prepared statement.........................................     8


Cardin, Hon. Benjamin L., U.S. Senator From Maryland.............    41


Casey, Hon. Robert P., Jr., U.S. Senator From Pennsylvania.......    32


Chamberlin, Hon. Wendy, President, The Middle East Institute, 
  Washington, DC.................................................    47

      Prepared statement.........................................    51


Feingold, Hon. Russell D., U.S. Senator From Wisconsin...........    35


Hagel, Hon. Chuck, U.S. Senator From Nebraska....................    29


Lugar, Hon. Richard G., U.S. Senator From Indiana................     4


Menendez, Hon. Robert, U.S. Senator From New Jersey..............    38


Nelson, Hon. Bill, U.S. Senator From Florida.....................    26


Shivers, Mitchell, Principal Deputy Assistant Secretary for Asian 
  and Pacific Security Affairs, Office of The Secretary of 
  Defense, The Pentagon, Washington, DC..........................     9

      Prepared statement.........................................    11


Ward, Mark, Senior Deputy Assistant Administrator for Asia, U.S. 
  Agency for International Development, Washington, DC...........    15

      Prepared statement.........................................    17


Zinni, General Anthony C., USMC (Ret.), Former Commander, Central 
  Command, Falls Church, VA......................................    44

      Prepared statement.........................................    45


                                 (iii)




                      A NEW STRATEGY FOR ENHANCED 
                       PARTNERSHIP WITH PAKISTAN

                              ----------                              


                        WEDNESDAY, JUNE 25, 2008

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:30 a.m., in 
Room SD-419, Dirksen Senate Office Building, Hon. Joseph R. 
Biden, Jr. (chairman of the committee) presiding.
    Present: Senators Biden, Feingold, Bill Nelson, Menendez, 
Cardin, Casey, Lugar, and Hagel.

        OPENING STATEMENT OF HON. JOSEPH R. BIDEN, JR.,
                   U.S. SENATOR FROM DELAWARE

    The Chairman. The hearing will come to order. Now that 
Senator Hagel is here, we can begin. As General Zinni knows, we 
don't do a thing without Hagel, in this committee.
    All kidding aside, thank you all so much for being here, 
this is an important hearing, at least we believe it is, and I 
hope you do, as well.
    For far too long, the United States-Pakistani relationship 
has been--in my view--in desperate need of serious overhaul. 
For too many years, through too many administrations, not just 
one, it has been an unsteady balancing act, and one of the most 
turbulent spots on earth, that--in the last year alone--has 
seen a Taliban resurgence, a state of emergency, the 
assassination of Prime Ministerial candidate and former Prime 
Minister, Benazir Bhutto, the return of a democratic 
government, and now, a political stalemate in that country.
    The core of the problem, in my view, is this: The 
relationship between the United States and Pakistan has, for 
the past several decades, been largely transactional. And this 
transaction isn't working, in my view, for either party.
    From the American perspective, we spend billions of 
dollars, and we've gotten far too little to show for it. From 
the Pakistani perspective, America is an unreliable ally, that 
will abandon Pakistan the moment it is convenient to do so, and 
whose support, to date, has done little more than bolster 
unrepresentative rulers, both in and out of uniform.
    We believe we are paying too much and getting too little. 
The Pakistanis believe exactly the opposite, and both sides 
feel the costs of the relationship may soon outweigh the 
benefits; the status quo is unsustainable.
    We've got to move from this transactional relationship, in 
my view, the exchange of aid for services, to a type of normal, 
functional relationship we enjoy with all of our other military 
allies and friendly nations.
    Like any major shift--any major policy shift--to gain long-
term benefits, we have to shoulder transitional costs. Here, as 
I see it, are the central elements of what should be our new 
plan.
    Triple the nonsecurity aid to $1.5 billion annually, and 
make this a long-term commitment, a long-term commitment over 
10 years. This aid would be unconditioned, it's our pledge to 
the Pakistani people. Instead of funding military hardware, it 
would build schools, clinics, roads, and help develop the 
Federally Administered Tribal Areas, which Senator Hagel and I 
recently were on the border of and spent time speaking with 
Pakistanis as well as Afghanis about. Where extremism is taking 
even deeper root, in my view, than it had in the past.
    We should tie security aid to performance. We're spending a 
billion dollars annually, and it's not clear we're getting our 
money's worth. We should be willing to spend more if we get 
better returns, and less--less--if we don't.
    We should help Pakistan enjoy a democracy dividend. Back in 
November, I called for $1 billion in the first year of 
Pakistan's return to democratic rule. The supplemental now 
before the Senate contains a downpayment on this democracy 
dividend of $150 million. This money would help moderate, 
secular, political leaders show the Pakistani people that they 
can deliver the goods, as well as the generals.
    We should engage the Pakistani people--not just the 
rulers--we need a broad-based engagement, not just a 
government-to-government, that gets to the issues that matter 
to the Pakistani people most--not just the ones that only 
matter to us.
    The plan I propose would fundamentally change the dynamic 
between the United States and Pakistan, and here's why I think 
it would.
    First, a significant increase in nonmilitary, and 
nonsecurity aid, guaranteed for a long period, would help 
persuade the Pakistani populace that America is not a fair-
weather friend, but an all-weather friend. But also help 
persuade the Pakistani leaders that America is an ally that can 
be relied upon.
    Pakistanis suspect that our support is tactical and 
temporary. They point to the aid cutoff that followed the fall 
of the Soviet Union, to our refusal to either deliver or refund 
purchased jets throughout the nineties, and to our blossoming 
relationship with rival India--something I support.
    Many Pakistanis believe that the moment Osama bin Laden is 
gone, the United States interest will be gone. So, Pakistani 
policymakers hedge their bets, and many Pakistani citizens see 
the United States in a hostile light.
    When U.S. aid makes a real difference in people's lives, 
the results are immediate and lasting. After the devastating 
earthquake in 2005, American Chinooks delivering relief aid 
accomplished far more to improve our standing with the 
Pakistani people than any amount of arms sales or debt 
rescheduling we have done.
    Second, tying security aid, now about three-quarters of the 
package, to results would push the Pakistani military to 
finally crush al-Qaeda and the Taliban. Our best shot of 
locating bin Laden and his crew, and of shutting down the 
Taliban and the next generation of terrorist outfits, lies in 
the committed partnership of the Pakistani Security Services 
who, as some would point out, need to be better trained. They 
now have a military that's designed to deal with a land war 
with India, and they do not have a counterinsurgency 
capability, in my view.
    Their performance, to date, has been decidedly mixed. We've 
caught more terrorists in Pakistan than any other country, but 
Pakistan remains the central base for al-Qaeda operations.
    To put things in perspective, the $11 billion we spent in 
Pakistan in the last 6 years is less than we spend in Iraq in 6 
weeks. The Pakistani Security Services will be vital players 
for the foreseeable future. We can't simply insist that they 
combat the Taliban and al-Qaeda. We've got to help them develop 
the capacity to do so.
    Our relationship with the army intelligence agency, unlike 
our relationship with the nation as a whole, will always have a 
strong transactional element, but we've got to make sure we're 
striking a much better bargain than we have now, in my view.
    Third, a democracy dividend would empower the Pakistani 
moderate mainstream. Ever since the start of the Bush 
administration we've had a Musharraf policy, in my view, rather 
than a Pakistani policy. The democracy dividend will help 
secular, democratic, civilian political leaderships to 
establish their credibility with the Pakistani public. They 
must prove that they--more so than the generals of the radical 
Islamists--can bring real, measurable improvement to the lives 
of their constituents.
    Last, by engaging the Pakistani people, not just the 
rulers, on issues important to them, we're much more likely to 
secure their support on important issues to us. On a host of 
topics--Afghanistan, Iraq, Palestine, Kashmir, the list goes 
on--Pakistanis want a respectful hearing.
    Ask any ordinary Pakistani to list the top items of concern 
about our country, and you may get some answers unrelated to 
international grand strategy: Our visa policy, our textile 
quotas, our harassment of Muslims in America--in their view. 
Ask any Pakistani about Abu Ghraib, or Gitmo, or about water 
boarding or torture. Pakistanis don't see these as mere issues. 
They see these things as a moralstain on the very soul of our 
Nation, and in my opinion, so should we.
    History may describe today's Pakistan as a place akin to 
1979 Iran, or 2001 Afghanistan. The world's second-largest 
Muslim nation could become a failed state with an arsenal of 
nuclear weapons, and a population larger than those of Iran, 
Iraq, Afghanistan, and North Korea combined. We're far from 
that point, but it's a possibility.
    On the other hand, a stable democratic and secular 
Pakistan, could be a bridge between the West and the global 
Islamic community. The broad mass of the Pakistani people still 
want a lasting friendship with America.
    Which future unfolds will be strongly influenced, although 
certainly not determined by, the actions of the United States. 
The current transition in Pakistan provides us, in my view, 
with an opportunity to make this historic leap to a positive 
future.
    Today, we have two distinguished panels of witnesses. The 
administration's position will be spelled out by the Assistant 
Secretary of State--Richard Boucher, by the Principal Deputy 
Assistant Secretary of Defense for Asian and Pacific Security 
Affairs, Mitchell Shivers, and Deputy Assistant USAID 
Administrator, Mark Ward.
    Our private panel consists of two witnesses with deep, on-
the-ground experience in Pakistan. General Anthony Zinni served 
as CENTCOM commander during the period that included the India-
Pakistani nuclear test, the Kargil conflict, and Musharraf's 
coup d'etat. Ambassador Wendy Chamberlin took up her post in 
Islamabad less than 2 months before 9/11 and served through a 
time when nobody knew which direction Pakistan would go.
    Both General Zinni and Ambassador Chamberlin helped prevent 
the relationship from running adrift in some very dangerous 
times.
    But we can't keep jumping from crisis to crisis, relying on 
exceptional diplomats and military officers who save us from 
disaster. We need a new strategy, and to set the relationship 
on a stable course, and I hope that's what we'll discuss today.
    Now, I yield to my colleague, Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR, 
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you very much, Mr. Chairman, and I 
thank you for continuing this important series of hearings on 
Pakistan. It's given members an opportunity to review the 
dynamic political and security situation in Pakistan, as well 
as United States policy options, and the resources required to 
pursue them.
    We've examined a number of critical issues, including the 
size and purpose of our foreign assistance mechanism in 
Pakistan, the terrorist threat emanating from the Federally 
Administered Tribal Areas, and the prospects for democracy and 
stability.
    This is our fifth hearing on Pakistan in the last year, and 
we are better equipped to consider new directions for United 
States policy today.
    The United States has an intense strategic interest in the 
events and conditions in Pakistan and the surrounding region. 
Among other goals, we seek strong cooperation from the Pakistan 
Government in combating terrorist forces, the continued 
improvement in Indo-Pak relations, that maintain peace between 
these powerful neighbors, the development of Afghanistan as a 
free and stable country, governed by the rule of law, the 
secure management of Pakistan's nuclear program, and continued 
economic opportunity and development in the region.
    Shortly after the momentous Pakistan general election in 
February, we held a hearing to discuss the outcome. Deputy 
Secretary of State John Negroponte provided the American public 
with a sense of the optimism that successful elections often 
engender.
    However, he also provided a sobering comment on the 
potential for political backsliding and brinksmanship that such 
situations sometimes reveal. Nonetheless, his testimony 
reinforced congressional interest in seizing the historical 
opportunity, revitalizing our relationship. Inevitably, this 
leads us to ask whether more can be achieved through United 
States assistance programs.
    Last December, we reviewed the size and purpose of our 
various assistance mechanisms. Testimony helped Senators better 
grasp the difficulties our diplomats and development experts 
encounter, ineffectively implementing and monitoring U.S. 
assistance.
    The discussion also touched on the challenge of effectively 
modulating our assistance to achieve certain ends. Acting 
Deputy Administrator of USAID, Jim Kunder, recounted the impact 
of the Pressler amendment, which effectively halted U.S. 
cooperation with Pakistan in 1990, and this decision still 
confounds Pakistanis in discussions today.
    Chairman Biden has put forward a proposal for dramatic 
adjustments to United States foreign assistance to Pakistan, 
which has given our committee an important model for 
discussion. We should carefully consider both the amounts that 
we are providing, and the goals we are hoping to achieve.
    Establishing Reconstruction Opportunity Zones in frontier 
regions, continued investment in important sectors, such as 
education, and efforts to restructure our military assistance 
to Pakistan, are all steps in the right direction.
    The United States should make clear to the people of 
Pakistan that our interests are focused, not on supporting a 
particular leader or party, but on democracy, pluralism, 
stability, and the fight against violence and extremism, and 
these are values supported by a large majority of the Pakistani 
people.
    If Pakistan is to break its debilitating cycle of 
instability, it will need to achieve progress on fighting 
corruption, delivering government services, promoting broad-
based economic growth.
    The international community and the United States should 
support reforms, and contribute to the strengthening of 
Pakistani civilian institutions.
    I commend Deputy Secretary Negroponte and the 
administration for sustaining their commitment to work with our 
committee, on a bipartisan basis, to explore ways to improve 
our assistance to Pakistan. Our administration panel today 
reflects that continued cooperation, and I look forward to 
their testimony, as we consider the scope and prospect of 
substantially increasing long-term economic assistance to 
Pakistan, alongside our continued security assistance.
    I welcome all of the distinguished witnesses, and thank the 
Chairman.
    The Chairman. Thank you, Mr. Chairman.
    Gentlemen, again, welcome, and Mr. Secretary, Secretary 
Boucher, why don't you begin?

  STATEMENT OF HON. RICHARD BOUCHER, ASSISTANT SECRETARY FOR 
     SOUTH AND CENTRAL ASIAN AFFAIRS, DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Boucher. Thank you very much, Mr. Chairman. I'm very 
pleased to be here today, and thank you for hosting this 
important hearing, I'm glad to be here with colleagues from the 
Department of Defense and the Agency of International 
Development. The three of us sit together just about every day 
to talk about Pakistan in one shape--one form of meeting or 
another. So, hopefully you'll find us in harmony, or at least 
interesting.
    Before I go into the substance, I want to pay special 
tribute to you, Mr. Chairman, Senator Lugar, and other members 
of the committee who've really paid sustained and, I think, 
important attention and leadership on the subject of Pakistan--
you've all traveled out there, some of you were out there to 
help ensure the election was a good election, some of you have 
been there more than several times, and I think it's a very, 
very important factor for all of us, that we have a cooperation 
between the legislative and executive branch and between the 
different parties, in showing the broad United States support 
for Pakistan and the goals that we have are shared goals that 
are endorsed by the Congress and the American people.
    You all, certainly, know why Pakistan is important to the 
United States and how important it is. Pakistan is the second-
most populous Muslim nation in the world, it's on the front 
lines of the fight against extremism and terrorism, it's 
located in a very strategically important region with new 
strategic opportunities, and important neighbors like 
Afghanistan, India, Iran, and China.
    The safety and security of the United States is 
inextricably linked to the success, the security and the 
stability of a democratic Pakistan.
    On February 18 of this year, the Pakistani people went to 
the polls and elected moderate leaders who set a path for 
Pakistan into the future. We want to see this new government 
succeed, because it represents the desires of the Pakistani 
people, and because we believe that a moderate government with 
a democratic mandate is the most effective partner in the fight 
against terrorists and violent extremism.
    Successful elections earlier this year were an important 
moment for Pakistan and its democratic development, but a 
number of very difficult challenges remain for the new civilian 
government, from facing down extremism to stimulating economic 
growth and dealing with energy and food shortages.
    Our support in these efforts is critical to the success and 
stability of Pakistan as a nation, and therefore, we will 
continue to pursue a long-term comprehensive partnership with 
Pakistan that seeks to address their most important needs and 
strengthens our relationship as democratic allies and partners.
    The new government is at the core of our strategy for 
working with Pakistan. We want to help the new leaders 
modernize the nation in all its aspects--modernize its 
democratic institutions; modernize the economy to provide jobs 
to the citizens; modernize the education system; modernize the 
security services, so that they can effectively fight 
terrorists; and bring arrangements for the tribal areas of 
Pakistan up to date, so that the writ of government prevails 
throughout the nation.
    With a new Pakistani Government, we're already working to 
do these things that we hope can strengthen democratic and 
civilian institutions, promote good governance, enhance 
counterterrorism cooperation, so that we can all work to 
eliminate the social and economic conditions that allow 
extremism to flourish.
    And I would note, sir, there's a statement coming out today 
that we understand is coming out from the Prime Minister's 
office in Pakistan, that involves the--all the political and 
military and appointed leaders of Pakistan who are dealing with 
the crisis in the tribal areas that brings them together on a 
common approach against terrorism, states the principles under 
which they intend to operate, and we see this is a very 
important development--it brings together all of the proper 
players, it states a very clear, multipronged approach, it 
states very clearly the goals of ending the violent extremism, 
ending the cross-border activity and expelling the foreign 
fighters, and it states very clearly, the goal of working with 
the tribes to develop and stabilize the area. So, I think 
that's a very important development today, and we'll look 
forward to working with them to implement that statement that's 
coming out.
    Over the past year, we in the U.S. Government have been 
developing a strategy intended to reinforce our existing 
commitment to the kind of long-term partnership that we're all 
talking about. This strategy addresses Pakistan's needs in 
education, strengthen democratic institutions, economic growth, 
and adequate health care.
    We're pleased that Senator Biden, you sir, are proposing 
just such a commitment in new legislation, and we want to work 
with you on that legislation, even if we don't agree with you 
on every point of the current version.
    But we welcome the initiative, we feel strongly that a new 
bipartisan commitment to partnership with Pakistan is crucial, 
and we will continue to work in a bipartisan manner, as Senator 
Lugar said, our Deputy Secretary Negroponte has pledged to work 
with you, together, to try to move forward.
    A sustained and integrated commitment to developing 
Pakistan's economy and social infrastructure cannot be 
separated from our key strategic objectives in the war on 
terror. There are a number of very important initiatives that 
we're taking in this vein. My colleagues and I would be happy 
to talk to you about them. I would like to highlight just one, 
and that's the Reconstruction Opportunity Zones.
    Certain goods produced in the border, and earthquake-
affected areas of Pakistan--and indeed in all of Afghanistan--
would be eligible for duty-free treatment on entry into the 
United States. These zones can help counter extremism by 
stimulating sustainable development and providing alternatives 
to extremism, narcotics trafficking, and other illicit 
activities.
    Reconstruction Opportunity Zone legislation is expected to 
be introduced in the House of Representatives very shortly, and 
I hope that we will see your support for the Cantwell bill 
that's already been introduced in the Senate.
    Mr. Chairman, I'm going to be traveling to Pakistan next 
week to talk with the new government about how we can best face 
the challenges ahead, together. My message will be simple and 
consistently delivered to political, military, and civil 
society leaders, and here's what I'm going to say.
    The United States welcomes and supports the democratically 
elected Government of Pakistan. We believe firmly that now is 
the time for everyone to get past political maneuvering, and 
focus on the issues that are important for the Pakistani 
people. We will work with you to support the modernization of 
Pakistan in all areas. We will work with you to support local 
leadership and oppose militants, because terrorism is our 
common enemy, and we will work together to determine how we can 
best focus our assistance in areas that matter most to the 
people of Pakistan.
    And I think when I convey that message, I can say that that 
is a basic message that's understood by Members of the 
Congress, Members of the Senate, as well as the American 
people.
    Looking ahead, for our commitment to Pakistan to be 
successful, it must be a long-term partnership, and it must be 
based upon a bipartisan consensus. We hope that together the 
Congress and the administration can establish a new framework 
for economic and security assistance, that can support 
Pakistan's democracy, counter its terrorism threats and 
strengthen its development.
    So, thank you very much for the chance to appear today, and 
I'd be happy to take any questions you may have.
    [The prepared statement of Mr. Boucher follows:]

  Prepared Statement of Hon. Richard Boucher, Assistant Secretary for 
  South and Central Asian Affairs, Department of State, Washington, DC

    Mr. Chairman and members of the committee, thank you for inviting 
me. I'm pleased to be here with my colleagues from the Department of 
Defense and from the U.S. Agency for International Development. We 
three, and others, sit together frequently to discuss the topic you've 
asked us to talk about here today: U.S. strategy towards Pakistan.
    Before delving into substance, I want to first thank the committee 
members for their interest, continued engagement and leadership on U.S. 
policy in Pakistan. The chairman and Senator Lugar in particular have 
demonstrated exemplary leadership and bipartisan cooperation in forging 
a strong, sustained partnership between the United States and Pakistan.
    You all know how important Pakistan is to the United States, and I 
believe you know the reasons why. Pakistan is the second most populous 
Muslim nation in the world, at the front line in the fight against 
extremism and terrorism, in a strategically important region, with 
other important neighbors like Afghanistan, India, Iran, and China. The 
safety and security of the United States is inextricably linked to the 
success, security, and stability of a democratic Pakistan.
    On February 18 of this year, the Pakistani people went to the polls 
and elected moderate leaders who will set the path for Pakistan into 
the future. We want to see this new government succeed, because it 
represents the desires of the Pakistani people and because we believe 
that a moderate government with a democratic mandate is the most 
effective partner in the fight against terrorists and violent 
extremism.
    The successful elections earlier this year were an important moment 
for Pakistan and its democratic development, but a number of difficult 
challenges remain for the new civilian government, from facing down 
extremism to stimulating economic growth and dealing with energy and 
food shortages. Our support in these efforts is critical to the success 
and stability of Pakistan as a nation. Therefore we will continue to 
pursue a long-term, comprehensive partnership with Pakistan that seeks 
to address their most important needs and strengthens our relationship 
as democratic allies and partners.
    The new government is at the core of our strategy for working with 
Pakistan. We want to help the new leaders modernize the nation in all 
its aspects. Modernize democratic institutions. Modernize an economy 
that can provide jobs to its citizens. Modernize the education system. 
Modernize the security services so that they can effectively fight 
terrorists. And, bring the arrangements for the Tribal Areas up to date 
so that the writ of government prevails throughout the nation. With the 
new Pakistani Government, we are already working to do these things 
that we hope can strengthen democratic, civilian institutions, promote 
good governance, enhance counterterrorism cooperation and that we hope 
can eliminate the social and economic conditions that allow extremism 
to flourish.
    Over the past year, we in the U.S. Government have been developing 
a strategy intended to reinforce our existing commitment to the kind of 
long-term partnership I just described. This strategy addresses 
Pakistan's needs in education, strengthened democratic institutions, 
economic growth and adequate health care. We are pleased that Senator 
Biden is proposing just such a commitment in new legislation. While we 
do not agree on every point in the current version of the proposed 
legislation, we welcome this initiative and feel strongly that a new, 
bipartisan commitment to partnership with Pakistan is crucial. We look 
forward to working closely with this committee to see this initiative 
through.
    A sustained and integrated commitment to developing Pakistan's 
economy and social infrastructure cannot be separated from our key 
strategic objectives there in the war on terror. There are a number of 
important initiatives in this vein, but I would particularly like to 
highlight one: Reconstruction Opportunity Zones. Certain goods produced 
in zones in the border and earthquake-affected areas of Pakistan (and 
all of Afghanistan) would be eligible for duty-free treatment on entry 
into the United States. These zones will help to counter extremism by 
stimulating sustainable development and provide alternatives to 
extremism, narcotics trafficking, and other illicit activities. 
Reconstruction Opportunity Zone legislation is expected to be 
introduced in the House of Representatives very shortly and I hope we 
will have your support for the Cantwell bill in the Senate.
    I will be traveling to Pakistan next week to talk with the new 
government about how we can best face the challenges ahead together. My 
messages will be simple and consistently delivered to political, 
military, and civil society leaders. I intend to say clearly: The 
United States welcomes and supports the democratically elected 
Government of Pakistan. We believe firmly that now is the time for 
everyone to get past political maneuvering and focus on the issues that 
are important for the Pakistani people. We will work with you to 
support the modernization of Pakistan
in all areas. We will work with you to support local leadership and 
oppose militants, because terrorism is our common enemy. And, we will 
work together to determine how we can focus our assistance in the areas 
that matter most to the people of Pakistan.
    Looking ahead, for our commitment to Pakistan to be successful, it 
must be a long-term partnership and it must be based upon a bipartisan 
consensus. We hope that together, Congress and the administration can 
establish a new framework for economic and security assistance that can 
support Pakistan's democracy, counter its terrorism threats, and 
strengthen its development.

    The Chairman. Thank you very much, Mr. Secretary.
    I want to make it clear that the legislation that I 
reference, I've been working very closely with Senator Lugar, 
and the hope is, whatever is introduced, will be introduced in 
a bipartisan fashion. And other members of the committee also 
have been working very hard on it, as well.
    Let me hear from the Defense Department.

   STATEMENT OF MITCHELL SHIVERS, PRINCIPAL DEPUTY ASSISTANT 
SECRETARY FOR ASIAN AND PACIFIC SECURITY AFFAIRS, OFFICE OF THE 
       SECRETARY OF DEFENSE, THE PENTAGON, WASHINGTON, DC

    Mr. Shivers. Good morning. Chairman Biden, Ranking Member 
Lugar, members of the committee, thank you for the opportunity 
to discuss the new strategy for an enhanced relationship with 
Pakistan. I've prepared a written statement, which I would ask 
to be inserted into the record.
    The Chairman. Your entire statement will be place in this 
record.
    Mr. Shivers. I would like to use this brief introductory 
statement to summarize my written testimony which focuses on 
the United States security assistance relationship with 
Pakistan, and as requested, provides an understanding of why 
the Department of Defense (DoD) considers the United States 
effective, long-term, constructive engagement with this 
important ally so essential to U.S. interests.
    First, Pakistan is the second most populous Muslim state, 
the sixth most populous country in the world, and is located at 
the geopolitical crossroads of South and Central Asia.
    Second, Pakistan possesses nuclear weapons, and has already 
fought three conventional wars with another nuclear nation next 
door--India.
    Third, Pakistan has a large, growing middle class, striving 
for democracy.
    Fourth, elements of extremism and terrorism are at work 
within Pakistan.
    Fifth, the wholehearted assistance of the Pakistani people 
and their government will help the United States achieve its 
national security objectives in Afghanistan.
    Sixth, and most importantly, militants and terrorists 
within the border region of Pakistan constitute a direct threat 
to the United States homeland. More than ever, U.S. national 
security is linked to the success, security, and stability of a 
democratic Pakistan.
    While Pakistan has made important strides toward democracy 
and stability, much remains to be done. The February elections 
were an important step, but Pakistan is now facing severe 
budgetary and economic issues at the very time that the 
government must act decisively to eliminate the al-Qaeda and 
Taliban safe havens in the Federally Administered Tribal Areas, 
the FATA, and North-West Frontier Province, the NWFP.
    The new coalition government has a difficult road to 
navigate, and requires the United States steadfast support. 
Pakistan is a key partner in the war on terror, and plays a 
major role in long-term efforts to build a stable Afghanistan. 
Without U.S. assistance and support, Pakistan could not afford 
to deploy and maintain 100,000 military and paramilitary forces 
in the FATA.
    Since 2001, the Pakistani Army has conducted 91 major, and 
countless small operations, in support of the war on terror, 
and it has captured or killed more al-Qaeda or Taliban 
extremists than any other coalition partner.
    The security of the border between Afghanistan and Pakistan 
has been the subject of increasing concern. The FATA border 
region has been identified as a safe haven where Taliban and 
al-Qaeda forces recruit, train, and equip fighters to 
infiltrate into Afghanistan.
    This area has always had a special constitutional status in 
Pakistan and is governed only loosely under the provision of 
the century-old Frontier Crimes Regulations. Operating in the 
FATA is challenging even for the Pakistanis, who are generally 
considered to be outsiders and interlopers by the fiercely 
independent Pashtun tribesman there.
    The Government of Pakistan must develop localized 
engagement strategies that can earn the support of border 
inhabitants while achieving the government's aims. It is only 
by working with local security elements in the Pakistan 
military, that security is possible in the FATA and NWFP.
    Helping to ensure that Pakistan has capable, professional 
security forces will better align the security objectives of 
our two nations. Without effective security forces, Pakistan's 
efforts will fail.
    DOD appreciates this committee's consideration of the new 
possibilities with Pakistan and the tools that will be 
necessary to yield the desired results. We are committed to 
enhancing Pakistan military's effectiveness, via training and 
equipping programs, for their Special Operations Forces and 
paramilitary personnel.
    But, despite our commitment, we are not well-armed with 
regard to funding. The Security Development Plan is funded 
using a patchwork of authorities. It does not have a dedicated 
source of funding that is as flexible and adaptable as the 
enemy.
    While we recognize the committee's interest in ensuring 
that our security assistance and reimbursement programs advance 
U.S. national security interests, we feel that such concerns 
are best dealt with via the day-to-day interactions between our 
governments, and not as a litmus test of the commitment of 
either country to fight against the adversaries we face 
together.
    In conclusion, the Department of Defense strongly endorses 
the administration's interagency efforts to implement a truly 
comprehensive strategy to ensure our overall relationship with 
the people of Pakistan succeeds. The American and Pakistani 
peoples can greatly benefit from a strategic dialogue, built 
upon a foundation of mutual trust and commitment. To do so, we 
must be good allies, with long-term perspectives.
    Of immediate concern, our success in protecting our 
homeland and achieving our goals in Afghanistan will require 
Pakistan's success in addressing the various security-related 
needs in the FATA and the North-West Frontier Province.
    Sufficient, flexible, and legislatively unconditioned U.S. 
security assistance, therefore, is critical to our eventual 
success in Afghanistan and the war on terror.
    Thank you, Chairman, I look forward to your questions.
    [The prepared statement of Mr. Shivers follows:]

  Prepared Statement of Mitchell Shivers, Principal Deputy Assistant 
    Secretary of Defense for Asian & Pacific Security Affairs, the 
                        Pentagon, Washington, DC

    Chairman Biden, ranking member Lugar, members of the committee, 
thank you for the opportunity to discuss the ``New Strategy for an 
Enhanced Relationship with Pakistan.'' This morning I would like to 
discuss our United States security assistance relationship with 
Pakistan and, as requested, provide the public with an understanding of 
why the Department of Defense considers the United States effective, 
long-term constructive engagement with this important ally so essential 
to U.S. interests.
    First, Pakistan is the second most populous Muslim state, the sixth 
most populous country in the world, and is located at the geopolitical 
crossroads of South and Central Asia. Second, Pakistan possesses 
nuclear weapons and has already fought three conventional wars with 
another nuclear nation next door--India. Third, Pakistan has a large, 
growing moderate middle class striving for democracy. Fourth, elements 
of extremism and terrorism are at work within Pakistan. Fifth, the 
whole-hearted assistance of the Pakistani people and their government 
will help the United States achieve its national security objectives in 
Afghanistan. Sixth, and most importantly, militants and terrorists 
within the border region of Pakistan constitute a direct threat to the 
United States Homeland. More than ever, U.S. national security is 
linked to the success, security, and stability of a democratic 
Pakistan. Pakistan has made important strides toward democracy and 
stability in the past several months, though much remains to be done. 
Pakistan's elections in February 2008 were an important step for 
Pakistan; we applaud the return of civilian leadership and remain 
committed to helping the people of Pakistan achieve their democratic 
goals. But Pakistan is now facing severe budgetary and economic issues 
at the very time when the government must act decisively to eliminate 
the al-Qaeda and Taliban safe havens in the Federally Administered 
Tribal Areas (FATA) and North West Frontier Province (NWFP). The new 
coalition government has a difficult road to navigate, and requires the 
United States steadfast support.
       importance of pakistan to u.s. national security interests
    Following the tragic events of September 11, 2001, Pakistan became 
a member of the coalition formed to defeat al-Qaeda and the Taliban 
Government of Afghanistan. At the request of the United States, during 
the early phases of Operation Enduring Freedom (OEF), Pakistan offered 
the use of its airspace, four airfields, and a seaport; and fuel, 
water, and utilities at those locations; deployed large numbers of its 
armed forces to protect deployed U.S. personnel; and later permitted 
the establishment of air and ground lines of communication through 
Pakistan into Afghanistan. Today, much of the fuel and dry cargo 
required to support U.S. and NATO military operations in Afghanistan 
transit Pakistan, and because of our cooperative relationship with 
Pakistan's armed forces, coalition forces lose very little of the 
supplies to insurgent activity, despite the close proximity of these 
lines of communication to areas al-Qaeda and the Taliban frequent.
    At the request of the United States in 2001, Pakistan deployed its 
Army for the first time in its history into the tribal agencies of the 
FATA along the border with Afghanistan to assist U.S. operations in 
Afghanistan by capturing al-Qaeda and Taliban fighters fleeing Tora 
Bora. The Pakistan Army captured and turned over to U.S. custody 
several hundred of these fighters. For example, Pakistani forces 
captured Abu Zubaydah, a senior al-Qaeda operative and Osama bin Laden 
confidant. During a raid on a residence in Rawalpindi, Pakistani forces 
arrested al-Qaeda senior leader Khalid Sheikh Mohammad, the alleged 
mastermind behind the September 11 attacks who was also wanted by the 
U.S. for his involvement in the 2002 murder of U.S. journalist Daniel 
Pearl.
     Pakistan is a key partner in the war on terror (WOT) and plays a 
major role in long-term efforts to build a stable Afghanistan. Without 
U.S. assistance and support Pakistan could not afford to deploy and 
maintain 100,000 military and paramilitary forces in the FATA. Since 
2001, the Pakistan Army has conducted 91 major and countless small 
operations in support of the WOT, and it has captured or killed more 
al-Qaeda and Taliban extremists than any other coalition partner. 
Following Pakistan's decision in July 2007 to remove by force a group 
of religious extremists that had seized the Red Mosque in Islamabad, 
the number of retaliatory suicide bombings and ambushes of Pakistani 
military and police personnel increased dramatically. This was a 
watershed moment for Pakistan in some respects. Liberating the Red 
Mosque occurred at the same time Pakistan abandoned the failed 
Waziristan peace agreements and moved a substantial amount of new 
soldiers and paramilitary forces into the FATA, NWFP, and parts of 
Baluchistan. In the past 5 years, Pakistani soldiers have sustained 
more than 1,400 combat deaths--700 just since July 2007--and more than 
2,400 wounded in action. Accordingly, the degree to which senior 
Government of Pakistan and military officials understand that extremism 
is a domestic threat reached a new high.
             the federally administered tribal areas (fata)
    The security of the border between Afghanistan and Pakistan has 
been the subject of increasing interest and concern to the 
administration, Congress, and the international community. The FATA 
border region with Afghanistan is now and has historically been a 
largely ungoverned space. This area--approximately the size of 
Maryland--was identified in the July 2007 ``National Intelligence 
Estimate (NIE) on the Terrorist Threat to the U.S. Homeland'' and the 
``Country Reports on Terrorism 2007'' as a safe haven where Taliban and 
al-Qaeda forces recruit, train, and equip fighters and infiltrate them 
into Afghanistan. The FATA has always had a special constitutional 
status in Pakistan. Federal and provincial laws do not apply, and the 
area is governed only loosely under the provisions of the century-old 
Frontier Crimes Regulations. Operating in the FATA is challenging even 
for the Pakistanis who are generally considered to be outsiders and 
interlopers by the fiercely independent Pashtun tribesman. The tribes 
of the FATA have a long history of military resistance and success in 
preventing alien armies from entering, conquering, or imposing their 
will on these tribal areas.
    These areas along the border with Afghanistan have challenged 
generations of would-be external governors. Today's border inhabitants 
will not meekly yield their strongly embraced customs and traditions to 
outsiders who seek to alter their way of life. Accordingly, the 
Government of Pakistan must develop localized engagement strategies 
that can earn the support of border inhabitants while achieving the 
government's aims.
    It is only by working with local security elements and the Pakistan 
military that security is possible in the FATA and NWFP. Neither the 
Government of Pakistan (GOP) nor a meaningful percentage of Pakistan's 
citizens support a U.S. force presence in the country. Of course, the 
Pakistani people's support is essential to both our short-term and 
long-term bilateral objectives. Consequently, the U.S. is assisting 
Pakistan by equipping and training indigenous security forces such as 
the Frontier Corps along with supporting specialized Pakistan military 
units, like the Special Services Group (SSG), and by supporting the 
government's broader frontier development strategy. These initiatives 
will take time to succeed and the United States must, as good allies, 
have appropriate patience while awaiting the benefits of our current 
investments.
    Helping to ensure Pakistan has capable, professional security 
forces will better align the security objectives of our two nations. 
Capable forces, and their leaders, are much more likely to directly 
confront difficult security challenges--ones like those that occur 
along the Afghanistan-Pakistan border. Ridding the mountainous, rugged 
FATA and NWFP of anticoalition militants, terrorists, and extremists 
will demand both highly professional troops with specialized 
counterinsurgency (COIN) skills and reliable indigenous local security 
forces that can hold territory and earn the support of local tribes. 
Without effective security forces Pakistan's efforts will fail.
               united states counterinsurgency initiative
    In response to a request from Pakistan for assistance, the U.S. 
Government has developed a COIN strategy for Pakistan's western border 
region. This area encompasses the FATA, parts of NWFP, and parts of 
Baluchistan. One of the assumptions of COIN doctrine is that security 
is a means to an end, not the end itself. In this instance, the U.S. 
and Pakistan realize that securing the border with Afghanistan and 
curtailing safe haven protection for extremists cannot be accomplished 
with force alone. It will only work if we can change the environment 
for the resident population and that means an approach that embraces 
security, infrastructure improvements, overall development, and 
enhancements to the governance mechanisms of the region.
    Our colleagues at the Department of State and USAID are helping the 
Government of Pakistan implement development and governance projects in 
the FATA and NWFP. DOD is beginning work to enhance the ability of 
Pakistan's military to engage in counterinsurgency operations.
    United States security assistance efforts are designed to enhance 
the ability of the Pakistan Army's special operations forces to conduct 
targeted counterterrorism raids against extremist targets in the border 
region. The U.S. is working with Afghan, Pakistani, and ISAF colleagues 
to establish a network of Border Coordination Centers (BCCs) along the 
border to enhance the ability of liaison officers from all of the 
forces to see a common view of the area. Finally, the United States is 
also working with Pakistan's paramilitary Frontier Corps to train and 
equip this force and enhance its ability to capitalize on the unique 
skills, access, and abilities that it has in the border area. The 
Frontier Corps' status as a locally raised Pashtun force allows it 
access and acceptability amongst the indigenous population that even 
the Pakistani Army does not have.
    These efforts will take time to bear fiuit. Pakistan has been 
struggling with the degree to which its writ of governance extends into 
the FATA since its inception. The U.S. COIN strategy mirrors Pakistan's 
own FATA Sustainable Development Plan--a 9-year effort focused largely 
on development and the reform of governance institutions. Security 
assistance targeted at the FATA is delayed by the availability of funds 
and the work that must be done to build infrastructure, acquire 
equipment, and commit trainers.
    Let me say a word about Pakistan's current round of peace 
negotiations. The United States is deeply concerned about reports of 
cease-fire negotiations and agreements in South Waziristan and other 
locations in the FATA and NWFP. Previous attempts by the GOP to 
negotiate cease-fires and other agreements with the tribes in the FATA 
and NWFP were deeply flawed. After the Government of Pakistan signed 
similar agreements in 2005 and 2006, cross-border operations by 
extremist groups against the Afghan, U.S., and NATO forces increased 
substantially, due in part, we believe, to the provisions of the 
agreements. The United States recognizes that there is no purely 
military solution to insurgency, but has made it clear to the GOP that 
any agreement should be enforceable and backed up by the credible 
threat of force. Also, any agreement should include a commitment to 
deny a safe haven to foreign terrorists and prevent attacks against 
U.S., coalition, Afghan, or Pakistani forces in either Afghanistan or 
Pakistan. Finally, it is equally important that Pakistan's military 
forces remain in the FATA and NWFP in order to enforce agreements. This 
message has been delivered to all levels of Pakistan's Government over 
the past 2 months, and the Government of Pakistan has told us it will 
not approve any agreement that does not contain all of these 
conditions.
                          the tools available
    DOD appreciates this committee's consideration of the new 
possibilities with Pakistan and the tools that will be necessary to 
yield the desired results. The Department of Defense ambitions are 
high, but they match the urgency of the situation. The administration 
is committed to working with this sovereign nation--a key ally in the 
WoT--to help Pakistan reorient its military toward the doctrine and 
capabilities necessary for an effective COIN-focused strategy. DOD is 
committed to enhancing the Pakistan military's effectiveness via 
training and equipping programs for their special operations forces and 
paramilitary personnel. DOD is committed to creating mechanisms--such 
as the BCCs--that put actionable intelligence into the hands of those 
who need to use it. We also understand the importance of continuing to 
build capabilities in the Pakistan military's regular forces, including 
air mobility (helo) and other key enablers.
    But despite our commitment, we are not well armed with regard to 
funding. The Security Development Plan, which encompasses each of these 
program elements, is funded using a patchwork of authorities. It does 
not yet have a dedicated source of funding that is as flexible and 
adaptable as the enemy. Foreign Military Financing (FMF) is a useful 
authority and has played a major role in our effort to enhance and 
reform Pakistan's military. Section 1206 funding is useful for emergent 
needs, but not intended for programs that require continuity beyond a 
given fiscal year. The special $75M authority Congress created for the 
Frontier Corps is an effective tool to aid U.S. efforts, but it too has 
its limitations--specifically, that it cannot be used for any other 
nonmilitary force (which excludes, for example, the Frontier 
Constabulary, etc.). Indeed, Defense will provide a staff briefing to 
this committee on the Frontier Corps program later this afternoon and 
hopes that the committee, after consideration, will release its hold on 
this funding so it might get the field to support this important 
initiative. International Military Education and Training (IMET) funds 
are also an important element of our engagement strategy. While 
generally requiring the commitment of fewer resources per instance than 
FMF, IMET funds allow us to connect with Pakistan in a uniquely 
personal way--establishing relationships with rising career military 
personnel and exposing them to our practices relating to ethics, 
civilian oversight, and human rights. The expansion of our IMET program 
with Pakistan is a priority for DOD.
    Both the economy and security situation in Pakistan need U.S. 
support. The concept of a ``democracy dividend'' should not come at the 
expense of that nation's legitimate defense needs. Pakistan's ability 
to maintain security and the needs of its population should not be an 
``either/or'' proposition.
     The Department of Defense strongly supports a long-term commitment 
to Pakistan. But DOD opposes introducing legislated conditional 
language on the security assistance we give to Pakistan. Doing so 
undermines the trust relationship with Pakistan at a time when it is 
most critical. Imposing legislated conditions on our support leaves our 
ally with a mixed impression of American interests and commitment. The 
legacy of perceived abandonment after the Soviet occupation of 
Afghanistan ended and, later, the imposition of sanctions related to 
Pakistan's development of a nuclear capability--continue to negatively 
affect our relations with elements of Pakistan's military, civilian 
government, and population. Indeed, despite our assistance and 
engagement, the U.S. is sometimes viewed as an inconsistent ally. While 
we recognize the committee's interest in ensuring that our security 
assistance and reimbursement programs advance U.S. national security 
interests, we feel that such concerns are best dealt with via the day-
to-day interactions between our governments and not as a litmus test of 
the commitment of either country to the fight against the adversaries 
we face together.
                               conclusion
    In conclusion, the Department of Defense strongly endorses the 
administration's interagency efforts to implement a truly comprehensive 
strategy to ensure our overall relationship with the people of Pakistan 
succeeds. The American and Pakistani peoples can greatly benefit from a 
strategic dialogue built upon a foundation of mutual trust and 
commitment. To do so we must be good allies with long-term 
perspectives. Of immediate concern, our success in protecting our 
Homeland and achieving our goals in Afghanistan will require Pakistan's 
success in addressing the various security-related needs in the FATA 
and NWFP.
    The new civilian government in Islamabad is currently struggling to 
balance the requirement to alleviate poverty and illiteracy; deal with 
nationwide shortages of food, fuel, and energy; contain the spread of 
religious extremism; and maintain large military forces along the 
Pakistan-Afghanistan border. Sufficient, flexible, and legislatively 
unconditioned U.S. security assistance, therefore, is critical to our 
eventual success in Afghanistan and the WOT.

    The Chairman. Thank you very much.
    Deputy Administrator Ward.

 STATEMENT OF MARK WARD, SENIOR DEPUTY ASSISTANT ADMINISTRATOR 
     FOR ASIA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT, 
                         WASHINGTON, DC

    Mr. Ward. Mr. Chairman, Ranking Member Lugar, and other 
members of the committee, thanks very much for having USAID 
along today, as well.
    I've spent much of my foreign service career working in, or 
on, Pakistan.
    Senator Lugar, you talked about the Pressler amendment. I 
lived there when it came into effect in the nineties, and I 
moved back when we reopened in 2002, so I particularly welcome 
the committee's interest.
    I read your letter, very carefully, Mr. Chairman, and I'd 
like to respond to each of the questions that you put to me in 
the letter.
    You asked about the current assistance environment in 
Pakistan. When we went back--and I was the first one back--in 
2002, the security environment had changed for the worse since 
we left in 1995. So, we faced a real challenge: Keeping our 
footprint small, but standing up a very visible program, fast.
    So, we focused on four sectors, the ones that you've 
mentioned: Education, health, economic growth, and democracy in 
governance, and after consulting with the government, and the 
other donors, we decided to focus, in particular, on Sindh and 
Balochistan, because it seemed that those two provinces were 
getting the least attention from the other donors.
    Now, over the past 6 years, since our return, we've added 
more staff--mostly Pakistani professionals--but for the most 
part, we've stayed focused on those four sectors in the settled 
areas in the country, and then we've expanded our program 
geographically into Azad Kashmir, after the devastating 
earthquake that you've already referenced, in October 2005, and 
of course into the tribal areas.
    Going forward, we hope to expand into the Swat Valley in 
the North-West Frontier, Southern Punjab, and Northern Sindh, 
where we see growing extremist threats to the government. And 
if we receive additional resources in the future, we hope that 
we can consider new programs, in addition to the sectors that 
we've been engaged in, and that you've mentioned, we'd also 
like to take a look at agriculture, energy, and additional jobs 
programs, with the private sector in the lead.
    The assistance environment in the Frontier is, of course, 
the least permissive. There, we face a number of challenges--
extreme poverty, illiteracy, poor governance, tribal 
insurgency, and as my colleagues have said, distrust of 
anything, and anybody, foreign.
    We've adopted new approaches, in the face of these 
challenges. The sectors that we're working in, in the tribal 
areas may sound familiar: Maternal and child health, education, 
jobs programs, capacity-building for local government 
officials, but our approaches have changed.
    We're taking the time in the tribal areas to bring local 
communities into the discussion--we're letting the communities 
set the priorities, weigh the options, and make the decisions 
with local officials.
    Is it fast? No. But in some communities this will mean a 
new road, in some communities it will mean a well, or an 
irrigation canal, but in all communities, it will mean giving 
people a stake in their future, positive interaction with their 
local officials, for the first time.
    You asked about opportunities. In any other country, I 
don't know how we could manage such a large assistance program 
with so few Foreign Service Officers, and if I may, I doff my 
cap to them--all of them out there--who are working so hard 
under difficult conditions.
    Thankfully, in Pakistan, we have a very strong private 
sector and civil society that we can--and have--turned to, to 
help us manage our programs. Functions that we might perform 
with Foreign Service Officers in other countries, where 
security is less of an issue, such as project oversight, are 
well within the expertise of Pakistani accounting firms, 
engineers, think tanks and universities.
    We're also committed to using more Pakistani contractors 
and grantees to implement our projects. They know the country 
very well, they speak the language, they don't require the 
added security costs that an expatriate firm would, to ensure 
that the assistance dollars that you entrust to us, go further.
    The recent national elections--as both of my colleagues 
have said--also created opportunities, particularly in the 
Frontier. One very hopeful example in the federal government is 
the new Minister of Education, who's spoken publicly about the 
need to increase incentives for teachers, which we think is a 
critical missing element in any long-term plan to reform 
education in Pakistan. We don't want to disrupt or delay our 
ongoing programs, but we look forward to engaging with the new 
leadership, to be certain that what we're doing is completely 
responsive to their priorities.
    You asked about obstacles. Security, security, security. 
It's a real and serious concern, and it can impede 
implementation of our programs. We have to ensure the safety of 
our staff, and that can affect our monitoring.
    For example, unlike my first tour there in the early 
nineties, our staff now finds it difficult to get outside of 
the Embassy, or the consulate in Peshawar, to the detriment of 
our project management responsibilities. This is particularly 
acute in the tribal areas, but we're always looking for new 
ways to manage our programs.
    As I said a minute ago, we're relying much more on 
Pakistani professionals to perform some of the oversight. For 
the tribal areas, we've established a new office in Peshawar, 
to be closer to the action, and created a second deputy 
director position there, to lead our efforts in the Frontier. 
And we've also built a very strong relationship with the 
political agents that work in those agencies, who come into the 
settled areas regularly to report to us on progress and 
impediments.
    You asked how the Pakistanis would view an increase in our 
assistance. Well, they would welcome that increase, but as my 
colleagues have said, what they would welcome the most--and you 
have said--is a long-term commitment from the United States, a 
commitment that would reassure the Pakistani people that we 
will be their partner for many years to come.
    You asked in the letter if USAID would be able to handle 
additional resources. Well, we've already handled a pretty 
significant increase since we returned in 2002. When I went 
back in 2002, we had about $15 million. We're over $400 million 
now, that we're managing each year. We're staffing up in 
Islamabad, I told you that we've opened an office in Peshawar, 
to oversee our programs in the Frontier.
    Now, our capacity to manage additional resources is not 
infinite, but as long as we have your support, to use new 
mechanisms for delivering our assistance and monitoring 
progress, we're confident that we could manage more.
    And finally, you asked about interagency and cross-border 
cooperation with Afghanistan. We have a very strong country 
team in Islamabad and in Peshawar, an excellent collaboration, 
as Assistant Secretary Boucher said, among the three 
organizations represented at the witness table, and then 
personally among the three of us.
    There's a real commitment in the field, to eliminate 
duplication and build complementary programs between agencies, 
particularly civil-military cooperation.
    One of my hopes, going forward, is that we can show the 
Pakistanis how civil-military cooperation works. You talked 
about the earthquake--they did a terrific job in the 
earthquake, their army, working with their NGOs. I think we can 
help them bring that experience to bear in the tribal areas, as 
well, to help ensure that their very large investment in the 
tribal areas is more effective.
    We are working more closely, now, with our colleagues in 
Afghanistan, as we build up our assistance programs on the 
Pakistan side of the border. Interventions across the border 
should, more or less, mirror each other, especially where 
members of the same tribe live on both sides of the border.
    One proposed component that we've talked about is the 
Reconstruction Opportunity Zones, which could provide a 
relatively low-cost way to promote sustainable development in 
economically challenged areas of both countries.
    Mr. Chairman, members, thanks so much for having us, I look 
forward to your questions.
    [The prepared statement of Mr. Ward follows:]

      Prepared Statement of Mark S. Ward, Senior Deputy Assistant 
     Administrator, Bureau for Asia, U.S. Agency for International 
                      Development, Washington, DC

    Chairman Biden, Ranking Member Lugar, other distinguished members 
of the committee, thank you for inviting me to appear before you. 
Today's hearing topic--New Strategy for Enhanced Partnership with 
Pakistan--is important. I welcome the opportunity to discuss USAID's 
development challenges and successes and our plans to continue building 
our partnership with Pakistan to support the country's democratization, 
stabilization, and economic growth.
    I have a brief statement to present to the committee today. It 
highlights our current assistance program and partnership in Pakistan, 
the cooperative relationships across agencies, our plan looking ahead 
and, of course, the challenges we face implementing assistance programs 
in the unpredictable environment of Pakistan, particularly in the 
border areas with Afghanistan.
                           current assistance
    When the United States returned to Pakistan in 2002, we focused on 
four key sectors: Education, health, democracy, and economic growth, in 
accordance with the Government of Pakistan's (GOP) request. Over the 
past 6 years, USAID has deepened that mandate, but in view of high 
female illiteracy and the need for workforce skills development, 
education remains our largest program. In all these sectors, the 
Government of Pakistan has the lead and we target our assistance 
programs to support and enhance programs and priorities the GOP 
identifies.
    Current funding will allow USAID to expand these ongoing, 
successful programs to new areas, such as the Swat Valley in the North-
West Frontier Province, as well as southern Punjab, northern Sindh. 
Similarly, we will extend efforts in earthquake-affected areas of Azad 
Jammu and Kashmir, where we were not present until the 2005 earthquake 
occurred. This work has deepened our partnership with Pakistan and 
extended the writ of the government, as people have seen how these 
benefit their lives. We appreciate the support of Congress in making 
this possible. The overall FY 2009 request includes $150 million for 
the Frontier, the third year in a 5-year $750 million U.S. commitment 
to support the Pakistani 9-year $2 billion FATA Sustainable Development 
Plan.
    The Government of Pakistan faces a number of challenges in 
Pakistan--extreme poverty, illiteracy, lack of good governance and 
tribal insurgency. These problems are most severe on the borders with 
Afghanistan. The U.S. Frontier strategy expands on-going maternal and 
child health and education programs, introduces job creation efforts, 
and builds the capacity of local government to provide better services 
to the people. In some communities this means a new road, a well or an 
irrigation canal. In all communities, it means giving people a stake in 
their future development, and that of the GOP, for the first time.
                             opportunities
    The presence of a strong private sector, well-educated urban 
population, and civil society in Pakistan allow USAID to do its work 
more efficiently and effectively with a smaller mission staff that 
relies on local capacity to support our work. These strengths enabled 
USAID to increase use of local firms, NGOs, and think tanks, to support 
development. Similarly, USAID is committed to increasing the 
involvement of local contractors in supporting Pakistan's development. 
It is also important to note that results of the national elections 
opened up new opportunities in the Frontier for working with local 
leaders, municipal governments, civil society organizations, and 
moderate political parties. Finally, the successful corporate CEO 
Partnership for Earthquake Reconstruction had long-lasting effects on 
northern Pakistan's development and created an overwhelmingly positive 
image of the United States. USAID will continue to make the most of 
these and other opportunities in implementing a dynamic program that 
meets changing needs.
                               obstacles
    The security situation in Pakistan is a real and serious concern, 
and can impede implementation of programs. We must ensure the safety of 
our staff and, too often, that limits how we are able to monitor 
programs. In recent years, our staff find it difficult to leave the 
Embassy or consulate. These impediments especially affect work in the 
FATA. We've established an office in Peshawar and a second Deputy 
Mission Director to lead our efforts there. This will support our 
efforts to implement and monitor programs as effectively as possible.
      how would pakistan view an increase in economic assistance?
    Pakistanis are acutely aware of the hiatus that occurred when USAID 
left the country in the early 1990s, a departure that created a 
significant loss of trust between the U.S. and Pakistan that remains 
today. Pakistanis would welcome increased assistance. What they would 
value more than increased assistance is a long-term commitment from the 
United States, a commitment that would reassure the Pakistanis that we 
will be their partner for many years to come.
             would usaid be able to handle such resources?
    USAID has already successfully handled the significant but 
incremental increase in assistance that has occurred since 2002, when 
we returned to Pakistan. We are staffing up our mission in Islamabad 
now, and, as I mentioned above, we are building up our presence in 
Peshawar, as an in-country regional office, to oversee the FATA 
program.
                  interagency and mission coordination
    I appreciate appearing today with my two colleagues from the 
Departments of State and Defense. This is indicative of the close 
interagency coordination in Pakistan, that is, in fact, the best I've 
ever seen anywhere. We have a strong country team and excellent 
collaboration among the officials of these two Departments as well as 
other U.S. Government Agencies, and with other donors as well.
    We work closely with our colleagues in Afghanistan. We also 
recognize the benefits of increasing coordination between the two USAID 
missions. This will be particularly important as we continue our 
assistance programs in the tribal areas along the Frontier region in 
the FATA, NWFP, and Baluchistan. We think that interventions in these 
areas should more or less mirror each other, especially where members 
of the same tribe live on both sides of the border. We are still 
developing ideas on how we can improve this, but one proposed component 
is the Reconstruction Opportunity Zones (ROZs), which could provide a 
relatively low-cost way to promote sustainable development in 
economically challenged areas of Afghanistan and Pakistan.

    The Chairman. Thank you very much, we have a very good 
panel, and I hope Ambassador Chamberlin and General Zinni 
will--I know they'll listen--because a lot of the things that 
I'm going to ask are questions I've asked before, because I'd 
like to know about it from your experience, if I may.
    Look, I think each of us in this committee--by the way, 
before the clock starts, Senator Kerry, who's keenly interested 
in this, recently was on a trip with Senator Hagel, and 
myself--had to go chair another hearing. But his absence is not 
a lack of interest, he's been deeply involved in this, and 
things as we do and you do that this is--if we can ever pick 
one place in the world we'd better get it right, it's here.
    So, I have a lot of questions, and obviously in 7 minutes, 
I'm not going to be able to get to them. I hope I can narrow 
them to give you an opportunity to answer them relatively 
quickly, and expand on them in writing if you'd like, and 
maybe, if we have time, in light of the number of people we 
have, without trespassing too much on our second panel, maybe 
have a second round, if that opportunity presents itself.
    Let me start with you, Mr. Ward. Speaking only for myself, 
I think your--from my standpoint, I want to see you--I want to 
see USAID be more innovative. There is a significant middle 
class, there's a significant infrastructure that exists within 
Pakistan, we're not talking about Afghanistan, we're not 
talking about other countries where you are up to your knees in 
trying to deal with development aid, and the--one of the things 
that I'd like to ask, very pointedly, is you're in Balochistan, 
and Sindh, is that right?
    Mr. Ward. Those are the two provinces where we're focusing.
    The Chairman. Right. You said you have security concerns, 
from whence does the threat to your workers come? What--how do 
you identify, whether it's there or the tribal areas--the 
tribal areas it's kind of self-evident. But other than the 
tribal areas, the FATA, where does the threat to your workers 
come from? Where does it emanate from?
    Mr. Ward. Let me describe the process.
    The Chairman. Only if you can do it in a minute or so.
    Mr. Ward. When we want to go out and check on a project----
    The Chairman. Yes.
    Mr. Ward. We check with security, Pakistani security there.
    The Chairman. Yes, yes, right.
    Mr. Ward. If they've identified a threat in that area, to 
us--and they do in certain parts of the country more than 
others, certainly in Balochistan----
    The Chairman. Right.
    Mr. Ward. Certainly in Karachi.
    The Chairman. Right.
    Mr. Ward. It makes it very difficult for us to go out and--
--
    The Chairman. No, no; I'm not doubting that. I mean, I 
know, look, we've lost as many civilians, people not in 
uniform--almost, not as many--but we've lost a considerable 
number. And people vastly underestimate the price that Foreign 
Service Officers and aid workers pay for trying to enforce--or 
not enforce, but--follow through with American foreign policy.
    I'm just asking, is the threat from disparate groups, are 
you worried about al-Qaeda in the region, are you worried 
about, you know, certain parts of the Taliban, are you worried 
about opposition parties? I mean, who do they--when they say 
it's too dangerous to go here, do they identify for you why 
it's too dangerous?
    Mr. Ward. Senator, it's basically the same people who are 
threatening us in the tribal areas. Some of the radical 
madrassas are in Karachi, we've probably picked up more al-
Qaeda Taliban militants down there than we have in the tribal 
areas----
    The Chairman. Well, that explains it. I just want to make 
sure for the record we--now, second, I'd like very quickly 
and--I'm going to submit some questions in writing to you, Mr. 
Ward, if I may.
    What I'd like to do is ask the Defense Department--we, I 
came away after skirting the FATA, I think that's the best way 
we can say it--and meeting the Interservices Intelligence (ISI) 
for some extended period of time, and meeting with each of the 
opposition--each of the contestants in the last general 
election, because we were there for the election.
    I came away with several impressions that relate to the 
military side of this equation, I'd like to just reference 
them, and ask you if you would be willing to comment on them.
    First of all, I came away, not at all reassured by the ISI, 
that they had their act together, and they viewed ``the enemy'' 
in the FATA as being the same enemy we viewed as the enemy, 
number one. That is, it seemed to me a great deal more 
concern--and I'm not making a judgment here, on Mahsud and the 
traditional resistance in the FATA, than from the Taliban, and 
virtually no interest in--I shouldn't say no--little interest 
in al-Qaeda.
    Second, I found that even where there was a will on the 
part of the Pakistani military--brave fighters, very, very 
competent military--that it did not possess the capacity--it 
wasn't organized in a way that it could very efficiently 
compete militarily in the FATA. They, as much as, said that 
themselves.
    Third, I found that there was this--and I should have known 
this, my staff, Jonah Blank, has been telling me this for 5 
years--that there is a real resistance on the part of the 
Pakistani military to be trained, or take orders from, a 
sergeant, or another NCO ranking lower than they are in 
teaching them about counterinsurgency and training, which has 
been difficult.
    And last, I found that the big problem in the FATA is 
infrastructure. That you build a road that connects--you have 
some reason to connect that part of the world to Islamabad. 
Right now, much of that part of the world, within Pakistan, has 
no connection to--I mean, what goes on in Islamabad is 
irrelevant.
    And you saw what recently happened in, in what, in Swat, 
which was a, you know, a beautiful area that was essentially 
one of the places that attracted tourists and was doing well.
    So, my question--having stated those three things for you, 
is--from a military standpoint, what are the priorities from 
the Defense Department, in terms of dealing with--how do you 
think about approaching? Increasing the capacity, the 
willingness, the cooperation, for--with the Pakistani military 
to deal with what we look at as the problem, which is primarily 
a resurging Taliban in Afghanistan, out of the Pashtun tribe, 
and al-Qaeda.
    So, A, Do they view the same enemy--are they the same 
priorities? What's one man's terrorist may not be another 
man's. Do they have the same priorities? Do they have the 
capacity? And what is the thing that can help them the most, in 
dealing with both of those issues?
    Mr. Shivers. Well, Mr. Chairman, you asked the 64-million-
dollar question.
    Addressing the security needs in the FATA and the North-
West Frontier Province are amongst our greatest priorities at 
the Department of Defense.
    I'm curious about the representations that ISI officials 
made to you during your visit. Indeed, it's often thought that 
the Pakistanis have paid more attention to al-Qaeda, at our 
request, than they have to traditional militants in the tribal 
areas, and the Taliban. So, the fact that they were paying so 
much attention to the Taliban, I think, is encouraging.
    The Chairman. I misspoke, if--that's what I thought I 
said--they're much more concerned about Mahsud, then they are--
I came away with the impression--than they are about the 
Taliban, or then they are about al-Qaeda.
    In other words, the threat to Islamabad emanates more from 
insurgents in that region who have no interest in Afghanistan, 
but have as their target, Islamabad. As their target, the 
military--the Pakistani military.
    Yet our interest is--we keep pushing them, which we should, 
in my view, to deal with the Taliban that they created--with 
our help--and al-Qaeda. And that seems clear, to me, to be a 
second priority.
    Again, I'm not passing judgment about it from their 
perspective. I'd like to know as unvarnished an assessment you 
have, What do you think their major concern is? The ISI's as 
well as the Pakistani military, and in what capacity do you 
have to help them build to get them to view things, at least, 
somewhat more consistently with us?
    Mr. Shivers. Without going into matters that I think would 
better be addressed in closed session, I would say that we do 
have concerns from time to time as to whether the authorities 
in Pakistan have the same degree of interest that we have in 
preventing anticoalition militants from transiting across the 
border into Afghanistan.
    This is an uneven exercise, and I suspect, perhaps, the 
preoccupation they had with Baitullah Mahsud while you were 
there, had to do with the proximity to the event against 
Benazir Bhutto, and he's the presumed assassin.
    The Chairman. There, my--again, my impression is they 
wonder why we don't have more interest in the things they have 
an interest in. In other words, we talk to them only about--not 
only about--primarily about, the Taliban and al-Qaeda, and they 
say, ``We've got other problems, in addition to that.''
    Mr. Shivers. Well, indeed, I think that's an important 
element, Senator, of expanding this relationship, so that it's 
not seen just in terms of the essential security needs and 
requirements that we have in the FATA and the North-West 
Frontier Province, but is seen against a much broader spectrum 
of issues that exists bilaterally between the two governments.
    The Chairman. Well, I'm over my time, let me just ask you 
this--how important, from the standpoint of the United States 
military is the work that AID and State is doing in trying to 
build infrastructure in the FATA, as well as in other parts of 
Pakistan?
    Is it viewed as a necessary element to be able to allow 
Islamabad to gain control of an, in turn, begin to corral the 
influence of the Taliban and al-Qaeda in the region, or is it 
viewed as a nice thing that will help the people, but doesn't--
isn't going to make a whole heck of a lot of difference about 
whether or not Mullah Omar operates with impunity, and bin 
Laden is the cock of the walk in that area?
    We know where they live--they ain't living in Iraq. They 
are in Pakistan. So, tell me about the development piece from 
the perspective of a military man?
    Mr. Shivers. Well, let me echo the words of Secretary Gates 
when he made the--presented the ideas of utilizing all of the 
elements of national power at our disposal--especially soft 
power. We view this as essential. You can not prevail in the 
FATA, or the North-West Frontier Province--Pakistan will not 
prevail there--without essential development and assistance to 
the people. So, we've got to take their minds off of terrorism 
and extremism, and put their minds into productive use about 
how their children are going to be educated, and how 
development will take place in their communities.
    The Chairman. Well, Mr. Secretary, I'd like to take you up 
on your offer, maybe when we get back from recess, to have--not 
necessarily a hearing--but maybe you, or whomever you would 
suggest, could come up and brief us on the parts that we, 
understandably, or should be not in public, about the military 
component, training and the rest.
    I've now gone--I apologize, gentlemen, 5 minutes over my 
time. If we go to a second round, I will not take one.
    Senator Lugar.
    Thank you very much.
    Senator Lugar. Thank you very much, Mr. Chairman.
    I'd like to pursue with you, the general proposition that 
was really posed by an article in the New York Times yesterday 
by Carlotta Gall. She wrote, essentially, of a leadership void 
seen in Pakistan, and she goes on to point out that this is not 
altogether surprising, that during 8 years of military rule, 
the bureaucracies and a significant portion of the civilian 
government atrophied, they were less effective, and currently 
it is surprising to the Parliament to be having a discussion of 
the military budget, as some comment, after 40 years. Having no 
idea what the military budget might be.
    I mention these anecdotal circumstances along with the 
court in Pakistan ruling that Mr. Sharif isn't eligible to run 
for Parliament. He, of course, is head of a junior partner in a 
major coalition, and points out that this will have severe 
ramifications with regard to the coalition and its 
effectiveness.
    My point in raising all of this is that, to say the least, 
government in Pakistan is complex, but your situations in 
dealing with such government are more complex. I'm just simply 
wondering--even if we were to come forward with programs that 
are sufficient in terms of staff and money, with less emphasis 
on the people, and on a broader view of education, and so 
forth, is there sufficient effectiveness in the Government of 
Pakistan at this point, to be able to administer these 
programs, and to satisfy the American Congress, or taxpayers, 
or press, as the case may be, that we have a sufficient idea 
how the money is being spent?
    One story after another, I know, comes to your attention, 
of reports in which it's not very clear where the money went. 
And as the chairman has said, this has led to a transactional 
idea, that we're paying money to the military in Pakistan to 
get the job done with regard to terrorists or al-Qaeda in the 
border area, but at the same time we are witnessing a debate in 
which the government itself--the military, for that matter--is 
trying to determine its status with regard to the central 
government, quite apart from the population in the FATA area.
    How do we approach such a situation, and give some degree 
of confidence that--whatever policies we adopt, or discuss 
today--might have some degree of effectiveness?
    Would you like to start with that, Mr. Boucher?
    Mr. Boucher. Sir, I'm inclined to say yes, and leave it at 
that. I think you have put your finger on a real problem, but 
one that, I think, we see plenty of signs as being taken care 
of.
    The--I--we've talked to a lot of the political parties, our 
Ambassador keeps in touch with coalition partners, as well as 
people in other parties, and there seems to be a very broad 
consensus on some of the issues that are facing the nation. 
First, dealing with the immediate crisis of food and energy, 
and the approach to terrorism.
    And that's--for all of the reasons you cite--I think that's 
one of the reasons why their statement today about their 
approach to terrorism is very important, it brings together all 
of the political leaders, it brings together the military, the 
President's appointees and others, in a very clear statement of 
responsibility and goals, including goals of development, but 
also goals of ending cross-border activity and the presence of 
foreign fighters. So, I think that's a very positive 
development.
    They've been able to bring together consensus and support 
for a budget that includes, for the first time, a publicly 
stated military budget.
    So, it's always difficult working with coalitions, whatever 
country it is. Particularly when they, themselves, have issues 
between the coalition partners.
    But, I think on the issues that are really important to us, 
the issues of modernizing the nation, fighting extremism, 
modernizing the economy, providing jobs to young people, 
providing education to young people--there's a very strong 
national consensus. And as Mr. Ward noted, there are, I think, 
more and more capabilities in Pakistan in the bureaucracy--but 
also outside the bureaucracy--to spend, audit, control, create, 
and build from the money that we put out there.
    So, I think, if organized properly, with some understanding 
of the political environment, we can get these things done.
    Senator Lugar. Let me just follow with a question in terms 
of our own organization of affairs--describe the cooperation or 
coordination between our Embassy in Pakistan, and our Embassy 
in Afghanistan. You know, clearly we have goals there that are 
coincident in many ways, are we in touch with each other?
    Mr. Boucher. They--they're in touch with each other at all 
levels, from the Ambassadors on down, they work together 
closely.
    We recently decided we needed some people who actually 
specialized in cross-border issues, and so we have--in my 
Bureau at the State Department now, one of our most capable 
officers who's assigned to follow cross-border issues, 
potential for cooperation, you know, where the roads go, how 
are we approaching the extension of government on both sides. 
And we will have similarly charged people both at our Embassy 
in Afghanistan and in our mission in Pakistan. And that will 
create a small network of people who spend their whole time 
thinking about the relations between the two sides, and how we 
can help them work together.
    Senator Lugar. Mr. Ward, in previous hearings, we've heard 
emphasis on the fact that the Pakistan school system is--as far 
as public education--nonexistent for, perhaps, a majority of 
young people after a certain age, and this has led to much more 
of an emphasis on religious instruction, and difficulties of 
that sort.
    But, this is a monumental problem--how does our aid fit, is 
it changing the educational status of youth in Pakistan? What 
sort of efforts are they likely to make? Or, can you give us 
any promise of the future in that direction?
    Mr. Ward. Our goal, Senator, is to restore confidence in 
parents that they can send their kids to the local public 
school, and that their kids will get a decent education. The 
public school is probably there, the teacher may or may not 
show up. The facilities inside the school are probably grim. 
So, given that choice--if you're the parents--between this very 
poor public school, and a madrassah in the same area, where 
some course of education is offered--it's probably not going to 
matter a whole lot to the parents, because they may be 
illiterate themselves--and maybe they offer boarding, and 
certainly food--it's understandable why parents in many 
communities opt for the religious schools.
    So, our effort--and we focused on districts in Sindh and 
Balochistan to test these models--is to not build schools, but 
to improve the existing public schools, so that, No. 1, the 
teachers in those schools understand some modern methods of 
teaching that get the children involved in the classroom, 
rather than have the children sit there and memorize, and be 
talked to. Build playground equipment, build latrines, make 
these public schools more attractive places for parents to send 
their children.
    The concern about building lots of new schools based on the 
history of all of the donors in Pakistan, is if we build them, 
are there teachers for them? There are too many, what we call, 
``ghost schools'' in Pakistan. I call them ``goat schools,'' 
because in fact they, some of them, contain goats. But they're 
not used as schools. They were built decades ago, not recently. 
That's what we want to avoid, so we have to be careful that--
and this is where we need the commitment from the Government of 
Pakistan--that they make the resources available to hire the 
teachers, to put more public schools out there to offer a good 
alternative to the religious schools in as many communities as 
we can.
    Senator Lugar. Let me just ask, you view the press by that, 
the larger question--not just the written press, but the 
television and radio in Pakistan--is there some recognition of 
our efforts? In other words, we all talk about the public 
diplomacy, about the fight for hearts and minds, but is there 
any evidence that the people of Pakistan have some idea of what 
we are doing?
    Mr. Shivers. I think a lot of the people do, but the mass 
of the people don't. They did--and still have--a very strong 
impression of what we did in earthquake relief. You know, kids 
were drawing pictures of Chinooks dropping food for people, and 
that is certainly well-publicized, and well-acknowledged, and 
well-received.
    But the ordinary, sort of, building roads, vocational 
training, building schools, promoting health care--I think most 
Pakistanis that benefit from those services don't always know 
that it was us that made it happen.
    Senator Lugar. This gets to the heart of the question--or 
many questions--the chairman was raising, in terms of our 
dedication to efforts that, of the people of Pakistan, and a 
recognition of an alliance there, so that--we're not ready to 
talk about this today, and this may be beyond the hearing--but 
how do we broadcast better what we're doing? Why we care? That 
anybody does care? In other words, if all this happens in a 
relative vacuum, then the strategic situation we're talking 
about today is not very well enhanced.
    Mr. Ward. It's a very good question, Senator, and there's 
always a debate within our agencies about how many resources to 
put into the communications effort, as opposed to fixing up 
another school.
    We have tried very hard to come up with uniform branding 
for what we do so that when you see the message it always the 
same, so that if people see it enough, they remember it--the 
hand clasp, the ``from the American people'' in Urdu or Pashtu, 
but clearly we can do more. We have some good examples from the 
Middle East, of where we have done more robust advertising 
campaigns, and it seems to stick. People--we notice in the 
polling--they recognize more assistance coming from the United 
States. So, this is clearly an area where we need to do more.
    The only thing I would add to what Assistant Secretary 
Boucher said is that, if you go into one of the districts where 
we have focused, there is more of a recognition. Like the 
earthquake area--when they see us a lot, when they see the 
results--but you go into a mass urban area like Karachi? No.
    Senator Lugar. Thank you, Mr. Chairman.
    The Chairman. Mr. Chairman, it seems to me that that 
shouldn't come out of your budget, that should be a public 
diplomacy budget, but that's another issue for State.
    If you noticed, I changed the time to 10 minutes apiece, to 
equalize it out, a little bit.
    So, the Senator from Florida, Senator Nelson.

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson of Florida. Mr. Chairman, I'm interested to 
hear Ambassador Chamberlin's response about the effort of 
education, getting down to the schools and whether or not it 
is, in fact, happening. Because when she was Ambassador, that 
was one of her greatest frustrations, was that the aid was not 
getting down there. And therefore, it wasn't offering an 
alternative to the madrassahs. So, I look forward to that 
testimony.
    I have about 7 questions, and I'm going to rush you all 
through, and I just wanted to quote from yesterday's Christian 
Science Monitor, ``NATO forces are stepping up attacks inside 
Pakistan, causing friction with Pakistan's new government, 
which hopes to negotiate peace with the militants. For more 
than a year, Taliban militants have regrouped along Pakistan's 
border region, where the Pakistani state's presence is weak, 
and used it as a staging ground to launch attacks against both 
U.S. and Allied troops in Afghanistan,'' and so forth.
    Now, the Pakistani military has insisted that the Frontier 
Corps, which is about 85,000 paramilitary force of local 
tribesman from the FATA region, they insist that that's the 
best group to patrol and control the border. What say you?
    Mr. Shivers. Well, sir, you correctly described the 
Frontier Corps, and we know, presently, that they're ill-
equipped and ill-trained to carry on that mission. Certainly 
that's the reason why the Frontier Corps is a key element of 
our Security Development Plan, going forward.
    I would describe the Frontier Corps as capable of 
performing some critical counterinsurgency missions. I would 
think those would include the ability to hold areas--that is, 
not necessarily take areas that are in conflict--but the 
ability to hold them once they're taken.
    I would expect that they would be able to perform an 
effective policing mechanism. After all, the Frontier Corps--
during times of peace--is under the Ministry of Interior in 
Pakistan. It's only chopped over to the Ministry of Defense 
during emergency periods, as has existed since 2001.
    Senator Nelson of Florida. So, you think they are best to 
be a holding force, rather than a fighting force?
    Mr. Shivers. It is not an ideal force from a point of view 
of interdicting anticoalition militia--militants--who are 
attempting to transit the border. It's not an ideal force for 
that.
    Senator Nelson of Florida. OK.
    Mr. Shivers. But they can provide surveillance, they have a 
very valuable role in intelligence----
    Senator Nelson of Florida. Now, given what you have 
testified, I've got to hurry you along.
    Mr. Shivers. Yes, sir.
    Senator Nelson of Florida. What, then, is the status of the 
discussions between our Government and the Pakistani Government 
on the counterterrorism training and operations?
    Mr. Shivers. Well, as I mentioned, the Frontier Corps is an 
element of our Security Development Plan, we're also engaging 
with the Pakistan military and providing counterinsurgency 
assistance and training, and equipping the Special Services 
Group, which is their Special Forces equivalent, and a quick 
reaction force, air mobile capability, as well.
    So, combined, long term, we're helping the Pakistan 
military shift away from an eastern border orientation in a 
conventional defense against threats that they perceive from 
the east, to a counterinsurgency mode, and recognizing the 
domestic threats that exist from terrorists and extremists.
    Senator Nelson of Florida. I need to get you, specifically, 
here. What you've testified, here, is the Frontier Corps, more 
as a holding force, and you said you're giving training to the 
Pakistani military----
    Mr. Shivers. If I may, sir--I would add one other element 
to my description for Frontier Corps, which is, in due course, 
a modest interdiction capability.
    Senator Nelson of Florida. OK, now, is that going to give 
us the necessary leverage that we need? Or are we going to have 
to get the Pakistanis to embrace the use of the U.S. Special 
Operations Forces?
    Mr. Shivers. Sir, I would say that our programs and our 
plans right now are devoted to enabling Pakistan military and 
localized security forces to carry out the security missions in 
the FATA and the North-West Frontier Province. Those are the 
best forces, actually, to engage the enemies there.
    It would be extremely difficult to introduce, for any 
length of time, U.S. forces into that area.
    Senator Nelson of Florida. I understand that that's what 
you have to say. But do you really think that what you've 
described, between the paramilitary force of the Frontier 
Corps, and the existing Pakistani military, that it's going to 
solve the problem in those wild regions, like the FATA?
    Mr. Shivers. Sir, I'm not sure if our current plans in 
place will absolutely ensure success with the goals that we 
have in the FATA and the North-West Frontier Province, but I 
will promise you rapid adjustment, as time goes on, to ensure 
that our homeland is protected, and that militants are not 
using the FATA and North-West Frontier Province on a continued 
basis, as a safe haven to attack Afghanistan.
    Senator Nelson of Florida. Well, of course, that's the 
problem that we run into right now, is that, in fact, they are 
attacking U.S. troops, over in Afghanistan, across the border.
    Let me ask you, I understand that you can only go so far, 
but I'm trying to put the cross-hairs on the problem, here. And 
we've really had a problem in that area with our U.S. military 
being vulnerable, because Pakistan is not doing its part.
    All right, now you've heard a lot about these peace deals 
being negotiated. You want to tell us whether or not the 
civilian government of Pakistan is negotiating these deals, or 
is it the military?
    Mr. Shivers. I believe it's fair to say that these--I'm not 
sure how I would characterize--I know at present, it's the 
civilian part of the government.
    As Assistant Secretary Boucher just said, the Prime 
Minister has made an important announcement today, we're 
reviewing what the implications are of that announcement, I 
defer to Secretary Boucher for that----
    Senator Nelson of Florida. I've only got 2 minutes left, 
here, tell me, Mr. Secretary, what is the quid pro quo in these 
negotiations?
    Mr. Boucher. I guess the answer to your previous question 
is, people talk about the politicians, say we have a policy of 
negotiating with the tribes, not the militants. And yet, what 
we've seen is negotiations with Sufi Muhammad in Swat, and 
Baitullah Mahsud in Waziristan, so we're trying to reconcile 
that, and I think to some extent their statement today will try 
to do that.
    The quid pro quo is, they say they want to negotiate with 
the tribes. If the tribes impose security, stop the militancy, 
kick out the foreign fighters, stop the cross-border, the 
tribes will then benefit from inclusion in the national system 
of government, and will benefit from the economic development, 
and other things that can be done for them.
    Senator Nelson of Florida. Do you think that's real?
    Mr. Boucher. I think that's real. I think that's their----
    Senator Nelson of Florida. Even though General McNeil, the 
head of the NATO forces, has said publicly, that he thinks that 
the cease-fires with the militants have contributed to the 
increased violence along the Afghan side of the border?
    Mr. Boucher. I think we have all been very concerned--there 
was the deal that negotiated in September 2006, resulted in 
increased cross-border activity, and increased violence, 
increased planning, and operations by al-Qaeda in this region. 
We don't want to see that repeated. We think people have to be 
extraordinarily careful in negotiating with anybody up there. 
But certainly, the approach of saying we will work with the 
tribes to kick out the militants is a better approach than 
going to directly negotiate with the militants, and that seems 
to be the approach they are adopting, not one that they have 
implemented successfully, yet.
    Senator Nelson of Florida. Mr. Chairman, I've finished with 
17 seconds left.
    The Chairman. I'm genuinely impressed, thank you. Good 
questions.
    Senator Hagel, you have an extra 17 seconds.

                STATEMENT OF HON. CHUCK HAGEL, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Hagel. Mr. Chairman, thank you for the hearing, and 
the work that you and Senator Lugar have been involved in, in 
trying to focus on an integrated strategy on this issue.
    Let me ask our two secretaries, because each has noted, in 
your testimony and in the discussion here this morning, about--
as you have said it, Mr. Shivers, in your testimony, in 
referencing the United States counterinsurgency initiative, 
COIN.
    Now, you both are aware that in April of this year, the 
Government Accountability Office criticized the lack of an 
integrated United States government strategy, and you have both 
touched on a new effort, with a new government, with new 
leadership, to harness and integrate, organize, structure 
focus, resources of common interest both for the Pakistanis and 
for the United States.
    My first question in this area is, Who coordinates this? 
Who directs this? Is it the State Department? Is it the White 
House? Who is in charge of directing this new counterinsurgency 
strategy?
    Secretary Boucher.
    Mr. Boucher. It's basically the State Department, the 
interagency groups that have worked on this have been 
cochaired, I think, by the State Department and the NSC reps. 
It's a cooperative effort, but going through the usual 
interagency committees, but ultimately, I think we've got the 
responsibility for making it fit together, and carrying it out 
through our Embassy.
    Senator Hagel. Well, let me follow up on what you said--you 
said, ``basically,'' and ``I think.'' What does that mean? Are 
you in charge, or not?
    Mr. Boucher. Yes.
    Senator Hagel. Secretary Shivers, would you like to 
respond?
    Mr. Shivers. Sir, there are two principal mechanisms that 
we discuss the interagency process towards Pakistan. One is the 
weekly meetings, which Secretary Boucher chairs at the State 
Department. These have been going on for a very long period of 
time and they are very active engagements on a weekly basis.
    All of the major Departments of the Government that have a 
particular interest with Pakistan and our security interests 
there, as well as the broader bilateral relationships, are 
represented.
    Additionally, of course, we have the national security 
process. And in that, the State Department is cochairing a 
series of meetings at one level, and then, of course, it goes 
up to the Deputies Committee and Principals Committee, chaired 
by the staff of the National Security Council.
    Senator Hagel. Well, you put some focus on this point in 
your testimony, of course, as you know. What has changed? 
What's new? What's different?
    Mr. Ward. Senator Hagel, may I jump in here?
    Senator Hagel. Yes, sir.
    Mr. Ward. I think it's also important to notice what's 
changed in the field. There's a process now, in Peshawar, that 
is chaired by somebody who works for us, our principal officer 
there, who works for our Ambassador in Islamabad, who is 
getting the key assistance players around the table, to make 
sure that we're not duplicating, and to make sure that USAID's 
programs, and Deputy Secretary Shivers' programs, are 
complementing each other. We didn't do that before.
    Senator Hagel. So, excuse me, I want to make sure I 
understand this. So, USAID is doing this?
    Mr. Ward. We are, right.
    Senator Hagel. And that's the, what you would consider a 
significant change in what has happened prior to this point?
    Mr. Ward. The agencies that are carrying out U.S. 
Government assistance programs--whether it's civil or 
military--are sitting around the table and devising their 
strategies together, focusing on those areas in the tribal 
areas that are particularly strategic for us, thinking about 
what's going on across the border, in Afghanistan, and then 
deciding, all right, who has the best capacity to respond to 
that?
    Senator Hagel. Excuse me, because I'm limited in time, 
here----
    Mr. Ward. Sorry.
    Senator Hagel. We did not do that before?
    Mr. Ward. We didn't do it, to that extent, around one 
table, before.
    Senator Hagel. Did you do it around two tables? [Laughter.]
    Mr. Ward. Before, sir, we had a pretty small program.
    Senator Hagel. Let me--we had a lot of money, though? A lot 
of money went into it, in fact, there's a significant amount of 
money, $5.8 billion in U.S. assistance, directors had fought on 
the military and the ratios, and so on.
    But, I'm just trying to understand why this new program is 
different, why do you believe it's going to work? What's 
significant about it?
    Let me go back to Secretary Boucher.
    Mr. Boucher. May I, sir?
    Since I've been doing this job or the last 2, 2\1/2\ years, 
since 2006, we have had coordinated interagency plans on how to 
approach Pakistan. They have involved economic development, 
stabilization, as well as counterterrorism support.
    What's changed is, we have a new government in Pakistan, we 
have a democratically elected civilian government in Pakistan. 
As your colleagues have noted that, to some extent, that makes 
the working environment a little more complicated, but it 
provides a more solid base for a long-term effort against 
extremism.
    And so, we have gone back, gotten together on an 
interagency basis, said, ``What's the opportunity, here?'' Yes; 
we need to continue our work on education, health care, and 
other areas, can we expand that? What's the opportunity to 
build democratic institutions, in a way that we haven't been 
able to do before? What's the opportunity to come together with 
them?
    Senator Hagel. No; I got that.
    Mr. Boucher. A lot has changed in that process----
    Senator Hagel. How are we doing that? How are you doing it? 
I understand what your goals are, objectives, and they're 
important, and I don't disagree with anything the three of you 
have said and what you're attempting to do, but how are you 
doing this differently than before? Mr. Ward said, we're around 
one table now, we're actually coordinating and assigning 
responsibilities. But how is this changing? How is this going 
to make a difference?
    Mr. Boucher. It's essentially the process that Senator 
Biden, Senator Lugar, you guys and your staff have followed. 
What's different? How do we dealwith it?
    Senator Hagel. The implementation.
    Mr. Boucher. And how are we--what are we going to need for 
money to do it?
    Senator Hagel. Not the strategy, not the objective, but the 
implementation of what is referred to in the testimony, United 
States Counterinsurgency Initiative. You talked about, the new 
government makes it easier. Well, why is that the case, that 
the new government makes it easier, but give me also, an 
understanding, a better understanding of the implementation of 
this money, of our focus, of our strategy?
    Mr. Boucher. I think, to some extent, it's the people that 
I talked about, the cross-border people, the people that 
specialize in this area, the people that Mark Ward talked 
about, in Peshawar, and in our--staffing up our Embassy to 
better implement, directly, projects.
    Late last year, we decided we wouldn't do budgetary support 
in these areas, we'd carry out education, health and in a 
number of other things directly, through contracts that AID 
will administer. And then, as we work here in Washington to 
define what we can do in the next stage, with the opportunity, 
we're going to have to turn that into budget requests and 
probably more staffing and effort in the field, to carry it 
out.
    Senator Hagel. Thank you, let me ask you, Secretary 
Boucher, how would you characterize the coordination between 
the new government, which you noted, with some degree of new 
hope, how would you coordinate, or characterize the 
coordination between the new government and the military? 
Better, about the same? Wary? Tension? What? And then I'm going 
to ask you, Mr. Shivers.
    Mr. Boucher. I guess the answer is, it's developing. And I 
think it's----
    Senator Hagel. I'm sorry, it's developing?
    Mr. Boucher. It's developing, and there's some new hope. 
Their military has been very careful to brief the civilian 
leadership on their activities and their programs. We've seen 
the Defense budget become part of the national budget in a 
public way, so there's these signs of coordination, but I don't 
think they're quite there, yet, in terms of integrated 
approaches, but this statement today is probably a big step in 
that direction.
    Senator Hagel. OK, thank you.
    Mr. Shivers.
    Mr. Shivers. Before he presented his credentials, I had a 
brief meeting with Ambassador Hussain Haqqani, who is now 
currently the Ambassador to the United States from Pakistan. 
And he went at great length to describe the civilian 
government's commitment to their military, to the national 
security interest of Pakistan, and their intention to fully 
cooperate with the military, so as to ensure that these 
objectives in the FATA and the North-West Frontier Province are 
addressed, but also the broader, bilateral mil-to-mil 
relationship that we have with Pakistan.
    So, that is the intent, it remains to be seen how that 
materializes, but so far, we think that there's good progress 
on that.
    Senator Hagel. So, you agree with Secretary Boucher that 
it's developing, it's hopeful, and we'll see.
    Mr. Shivers. Yes, sir.
    Senator Hagel. Thank you. I'll yield back 13 seconds.
    The Chairman. Since it's 13 seconds, do you have more than 
one table in more than one geographic location? You described 
one table, it's a big country, how many tables do you have?
    Mr. Ward. What I was referring to, Senator, is our much 
larger program in the tribal areas.
    The Chairman. I got that.
    Mr. Ward. Right.
    The Chairman. How about the other areas?
    Mr. Ward. The interagency coordination that goes on for the 
settled areas of the country goes on, on a daily basis, in a 
country team meeting in Islamabad, chaired by the Ambassador, 
with policy guidance in Washington. That's been there since 
USAID returned in 2002.
    What I was describing was this renewed effort, now, that 
we've plussed up so much, in the tribal areas.
    The Chairman. Thank you.
    Senator Feingold.
    Senator Feingold. Senator, if you don't mind, I think 
Senator Casey has to go to the floor, and I'd be happy to defer 
to him, with your permission.
    The Chairman. I refuse.
    Senator Feingold. Well, than I'll proceed. [Laughter.]
    The Chairman. No, no; Senator Casey.
    Senator Feingold. I had the good fortune to be with Senator 
Casey in India just recently, and he was also in Pakistan, so--
--
    The Chairman. If you really want to enjoy Senator Casey, go 
to Scranton with him.
    Thank you.

            STATEMENT OF HON. ROBERT P. CASEY, JR., 
                 U.S. SENATOR FROM PENNSYLVANIA

    Senator Casey. Mr. Chairman, thank you, and I want to thank 
you for convening this hearing, and the Ranking Member Lugar, 
as well. And especially to my colleagues for doing what doesn't 
happen very often, both Senator Feingold, Senator Cardin have 
given me the opportunity in a limited period of time--I'm not 
going to take the 10 minutes.
    But, I wanted to do two things, one was to--really--to 
focus on just two areas, I have about 5, and I have to cut it 
back. And again, I want to thank the panel today for your 
testimony today, and for your public service. I know that Mr. 
Shivers and I had a chance to meet in India, and we're grateful 
for your presence here today.
    The second area--and I think I only have time for one--so 
Secretary Boucher, with regard to the nuclear command and 
control within the Pakistani Government--what is your sense of 
that now, generally, but in particular, do you think with the 
advent of this new government and the developments just in the 
last couple of months--has that command and control, and can 
you assure us today--that that command and control system 
that's in place, has that been compromised, has it 
deteriorated, or is it as strong as you, I think, testified to 
in previous testimony before this committee?
    Mr. Boucher. Sir, our understanding is that it has not 
changed, and we still have a high confidence that they're under 
good command and control.
    Senator Casey. And that would include both nuclear and 
fissile material, as well.
    Mr. Boucher. Yes, sir.
    Senator Casey. Thank you.
    Second, in a broader question about the resurgence of al-
Qaeda, it appears to me, and I think to a lot of people, that 
al-Qaeda's increasing its influence among all of these Islamist 
military groups, it's operating along the border, which we 
spend a good deal of time today talking about, and part of 
that, I think, and you may disagree, but I think part of that 
is due to the--the poor counterinsurgency capabilities of the 
Pakistani military.
    And, we know that in 2008, our Director of National 
Intelligence, stated that al-Qaeda is now using the tribal 
areas--the Federally Administered Tribal Areas--to put into 
place the last elements necessary to launch another attack 
against the United States.
    When we hear that language, and I think we heard that 
language from Admiral Mullen earlier this year, I think it was, 
saying that the border region between Afghanistan and Pakistan 
is, ``the site of planning for the next attack on the United 
States,'' and then when you juxtapose that with, Mr. Shivers, 
what you said earlier, this is on page 4 of your testimony, the 
July 2007 NIE, on the terrorist threat to the U.S. homeland, 
and the country reports from 2007 about the safe haven where 
Taliban and al-Qaeda forces recruit, train, and equip fighters.
    When I see all that, I'm worried about a couple of things. 
No. 1 is, Does our military, in that region, have all of the 
tools necessary, and all of the resources necessary, to do what 
it must do to succeed in that mission? That's one question.
    And then the second question is, When you juxtapose what 
the NIE has said, what Mr. Shivers, what you have said in your 
testimony, what Admiral Mullen has said, why do we--why don't 
we see the juxtaposition of those statements in President 
Bush's repeated statements that the central front in the war on 
terror is in Iraq? It doesn't make any sense to me, when you 
juxtapose those statements, and the threat posed in that 
region. So, could you comment on both, Does our military have 
what they need? and second, How do you explain the apparent 
contradiction, or conflict, between those two administration 
statements?
    Mr. Shivers. With respect to the first question, whether 
our forces have all of the resources that they need, certainly 
for the mission within the confines of Afghanistan, they do. 
They are well-trained and equipped, and highly motivated and 
admirably performing their tasks in Afghanistan.
    There is a continuing shortfall of forces in that country, 
and the NATO commander has identified a shortage of forces. 
Some of that shortage would be applied against the border with 
Pakistan, to increase the interdiction capabilities of our 
forces there against the anticoalition militants coming across 
the border.
    So, obviously, there are some troop shortages within NATO 
that need to be addressed, and our Secretary, our President, 
all members of our national leadership have spoken out on that.
    With respect to the threat in the FATA and North-West 
Frontier Province from al-Qaeda, it is real, it is significant. 
All of us at this table see intel, as do you, that addresses 
that. Obviously, we can't go into great detail in an open 
setting like this. Suffice it to say, that we're doing 
everything within our control to mitigate those risks as best 
possible.
    This is a rugged area, this is an area that doesn't have a 
ready access for U.S. forces, international forces, or Pak 
military forces, so it presents a tremendous number of 
challenges.
    Juxtaposing it against statements made about Iraq--there 
were, earlier, and I think less today--earlier there were 
significant al-Qaeda Iraq elements in Iraq, and that posed a 
very significant threat to the United States, as well. And 
you'll note, in the unclassified portion of the NIE, that al-
Qaeda elements in Iraq were the only affiliate of Central al-
Qaeda, which had publicly professed a direct threat to the 
United States homeland.
    So, the United States is more than capable of confronting 
threats in various locations, and I'm sure that----
    Senator Casey. We're probably going to disagree on the 
juxtaposition, because I think the President has made that 
statement repeatedly, and I don't think the temporal nature of 
it, as to when he makes it, I don't think changes the conflict 
or the contradiction. But, we can disagree about that.
    I want to make one more point, because I know my time is 
up. When I was in Pakistan with Senator Levin, we met with Mr. 
Zardari, we met with the Prime Minister, we met with President 
Musharraf, General Kiyani, and we came back and said, ``Look, 
before we go, unconditionally, to give them the support that 
we've promised, in terms of what we can in the Frontier, we 
ought to condition that, based upon their,'' for lack of a 
better word, ``demonstrable proof that they're going to enforce 
these agreements with the--in the tribal areas.''
    I get from your testimony that the administration does not 
agree with that. You don't think that aid, the $75 million, I 
guess it is, should be conditioned in any way, is that correct?
    Mr. Shivers. No, sir. Obviously, we'd like to see 
demonstrated performance from allies. I think the point we were 
making is to codify, or legislate it, put restrictions on the 
day-to-day discussions with a major non-NATO ally of the United 
States, and we'd prefer to discuss those conditions, and what 
our expectations are, in the privacy of bilateral diplomacy, 
rather than through legislation.
    But, we understand and fully appreciate this committee's 
interest in ensuring that there is a demonstrated performance 
on the part of Pakistan.
    Senator Casey. I'm out of time, but thank you so much, and 
I appreciate your willingness.
    And thanks to my colleagues.
    The Chairman. Secretary Boucher, based on that answer Mr. 
Shivers qualifies for the State Department.
    Senator Feingold.

            STATEMENT OF HON. RUSSELL D. FEINGOLD, 
                  U.S. SENATOR FROM WISCONSIN

    Senator Feingold. Why, thank you, Mr. Chairman, for holding 
this very important hearing. United States-Pakistan relations 
are at a critical juncture as the recently elected civilian 
government provides an opportunity to develop a sound and 
comprehensive bilateral relationship that serves the needs and 
principles of both countries, while also ensuring our national 
security--and theirs--over the long term.
    As I just mentioned, about a month ago, I and other 
Senators traveled to Pakistan, because as the intelligence 
community has confirmed again and again, Pakistan is the 
central front in the fight against al-Qaeda.
    Confronting this threat, which includes addressing the al-
Qaeda safe haven in the FATA, must be our top national security 
priority. That means hunting down Osama bin Laden and other al-
Qaeda operatives while collaborating with the Pakistani 
Government to neutralize forces before they plot or carry out 
attacks against Americans.
    It also means taking a strong stand against deals with al-
Qaeda or the Taliban so our friends in Pakistan understand that 
such measures are unacceptable.
    But this cannot be our only goal, as this struggle is more 
than a manhunt. If we're to be serious about fighting al-Qaeda 
and preventing another generation of bin Ladens from emerging, 
we must also recognize the needs of the Pakistani people, and 
expand our support for development initiatives, in a country 
where poverty is pervasive, and as I certainly confirmed, anti-
American attitudes are widespread.
    In order to make this shift, we need a new approach to our 
relationship with Pakistan, one that defends our national 
security interests while also acknowledging that the emergence 
of a democratically-elected civilian Government in Pakistan is 
vital to our strategic interests.
    We must abandon previous policies that were overly reliant 
on individuals and paid lip service to democracy, by expanding 
our relationships and supporting basic democratic institutions. 
A more inclusive policy will allow our counterterrorism 
partnership to, hopefully, withstand the turbulence of 
Pakistan's domestic politics, and help mitigate already high 
levels of anti-American sentiment.
    The extraordinary and antidemocratic measures President 
Musharraf took since his coup in 1999 were inconsistent with 
basic American values and did nothing to limit the presence of 
extremist groups in that country. I'd like to ask all three of 
you to address how the administration is seeking to reverse the 
negative impact of our overreliance on President Musharraf. 
What steps are we taking to ensure that the new government not 
only reigns in its military, but also makes tangible headway on 
reforming other institutions in order to strengthen democracy 
in Pakistan?
    Mr. Boucher.
    Mr. Boucher. I think the first thing to note is that we 
were a very important part of the transition to an elected, 
democratic government. We worked very hard at it all last year, 
we were very critical when President Musharraf did things that 
we felt were clear mistakes, we were quite outspoken about 
that, and we were quite supportive of the elements that led to 
a good election, and I've had many people on the democratic 
side of Pakistani politics thank us for all of the effort we 
put into that. This is what we wanted, and we helped get it.
    So, I think we are in a good position to work with a new 
government, there are new opportunities. You don't drop health 
care in order to build the Election Commission, or strengthen a 
judiciary, once they agree on how to organize it. So, we see an 
opportunity, I think, to expand our programs into building 
democratic institutions--which is one of their priorities--to 
expand our programs in support of the media or the judicial 
system or other aspects of a new society.
    And, as you said, not just to fight terrorism, but to bring 
all of the parts of the country under government control--
particularly to bring the tribal areas under government 
control. We've had a Security Development Plan to transform the 
security arrangements there, we've worked out a sustainable 
development plan, to work on infrastructure and schools, 
training, electricity for people who live up there.
    The thing the new government adds is the prospect of a 
different political arrangement for those areas, a different 
way of integrating them politically into the life of the 
nation, and that's something, I think, that we also see as an 
opportunity that we can support.
    Senator Feingold. I'll just follow up Mr. Boucher, for a 
minute, then I'll go to the other two witnesses.
    Mr. Boucher, would you agree that the rule of law and an 
independent judiciary are two fundamental principles of a 
strong democracy?
    Mr. Boucher. Absolutely.
    Senator Feingold. Why, then, hasn't the administration made 
any comments regarding the reinstatement of the deposed Chief 
Justice and other judges, I mean, even if the issue has been 
politicized in Pakistan.
    I've concluded, and I spent a lot of time on this when I 
was in Pakistan, met with the Chief Justice, heard the views of 
political parties on this--I've concluded that it is really a 
simple rule-of-law issue that requires a statement of principle 
from the United States.
    Mr. Boucher. Sir, the restoration of justice and the 
building of an independent judiciary is certainly something 
that we have strongly supported and we all agree upon. How that 
is to be done is a partisan issue where the fundamentally 
different Pakistani political parties disagree.
    Before the election, we said, ``This is something the 
politicians need to work out after the election.'' That's what 
they're doing, that's what they're still trying to do, and I 
think, it is really is something fundamentally for them to 
figure out how they want to do it. But the fundamental 
principle of building an independent judiciary is something we 
absolutely agree with, and we've made very clear we will 
support that.
    Senator Feingold. Well, to be clear on the record, this is 
not an issue to be solved by compromises between political 
parties, it's a simple rule-of-law issue. These justices, and 
the Chief Justice, were removed from office unlawfully. I asked 
every single person in that country, Was there any reason for 
them to be removed? Nobody said there was a reason for them to 
be removed. All I'm saying is that the fundamental principle 
that we, and this administration, should assert, is they should 
simply be reinstated. It shouldn't be part of a political deal. 
But, I'll let Mr. Shivers respond to the underlying question.
    Mr. Shivers. Sir, I would agree with Secretary Boucher, 
with respect to his discussion, or his reply to your question 
on reliance on President Musharraf. From our point of view, he 
was the head of state of the government, and the head of the 
army. So, it--of necessity--required our meeting with him, and 
discussing programs between the two countries.
    Senator Feingold. Mr. Ward.
    Mr. Ward. Senator Feingold, for USAID, I mean, we would not 
have a whole lot of interaction with the Presidency in the 
country. What we look for, going forward, and we're seeing it, 
and we're very pleased to see it, is that political commitment 
to bringing development to the tribal areas.
    The United States is making a large investment there, the 
Government of Pakistan is making a large investment there, as 
it should. And we have been looking for a continued interest, a 
continued commitment as the government has changed, and the 
kinds of announcements that we're seeing today, coming out of 
the Prime Minister's office, give us confidence that their 
commitment to bringing real change to the people living in the 
tribal areas, is going to be sustained over time.
    Senator Feingold. Mr. Shivers, one of our main points of 
influence in trying to combat extremism is the billions of 
dollars in Coalition Support Funds that the United States has 
provided to the Pakistani Government. Just yesterday, a GAO 
report found that the assistance may not have always been used 
as intended, and may have been, in some cases, duplicative.
    I think this is troublesome news, and it comes at an 
important time, as we seek to reevaluate our counterterrorism 
and overall relationship with Pakistan. Outside of the 
assistance we provide to Pakistan for allowing us access to 
Afghanistan, why, Mr. Shivers, will we not decrease coalition 
support funds until we saw an improvement in the 
counterterrorism activities in the FATA region?
    Mr. Shivers. Well, sir, let me first say that the entire 
senior leadership of the Department of Defense takes very 
seriously its oversight responsibilities with respect to 
Coalition Support Funds.
    With respect to conditionality on Coalition Support Funds, 
the legislation as intended, and as enacted in 2002 was meant 
as a reimbursement mechanism rather than a security assistance 
program. As a reimbursement mechanism, we determined that it 
was in the United States interest--the Congress determined--
that it was in the United States interest to make funds 
available to partners in the war on terror, who were conducting 
activities that were in direct support of the United States. 
And, indeed, this plays a critical role as mentioned by the GAO 
in its report, that this is a critical program, and enabling--
given the wherewithal to the Pakistan Government--to provide up 
to 100,000, and indeed at times they've had 120,000 forces in 
the FATA and the North-West Frontier Province.
    We do get results, we don't get the degree of results that, 
obviously, we desire. We'd like to have an end to Osama bin 
Laden, but that has not happened. We'd like to have no al-Qaeda 
in the border regions of Pakistan, but that has not happened, 
and we'd like to see an end to the Taliban, and certainly any 
coalition militants that transit the border, but that has not 
happened.
    There are good things happening, nevertheless, and there 
are reasons to continue support for the program.
    In terms of the fidelity of the program, I would note that 
over the last 18 months or 20 months, that we've--through 
discussions with Pakistanis, and through guidance from 
Washington and from discussions in the field, and particularly 
at the Embassy--we've applied much more strenuous tests to the 
documentation and the claims that are being provided by the 
Pakistanis.
    Senator Feingold. My time's up, but let me just say that as 
valuable as this kind of relationship is, there's nothing more 
important to the American people than progress in stopping 
these folks that are trying to kill us, and trying to kill our 
troops. And I think this issue should be one the table of how 
aid and this ability to stop these terrorists are combined.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Menendez.

              STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Thank you, Mr. Chairman.
    Thank you for your testimony.
    Let me ask you, Mr. Shivers, I'm one of those who asked for 
the GAO report, and I have a real difficulty understanding the 
Department of Defense's very limited comments on the report, 
where it says that DOD believes that the draft of the report 
fails to give sufficient weight to the context in which the 
Coalition Support Funds evolve, the significant contributions 
to the Global War on Terror that Pakistan has made, and that 
those funds enabled, and that the required flexibility and 
guidance of process for a contingency environment. That's one 
of your limited answers to the GAO report.
    I don't understand--and no one doubts that this 
relationship is important, no one doubts that it's 
significant--but I have a problem. You look at the report; so 
much of the money was spent without actually even making sure 
that Pakistan was doing what it said it would.
    Two hundred million dollars for an air defense radar, even 
though al-Qaeda has no known air-strike capabilities? Forty-
five million for roads and bunkers, we're unsure that they were 
even built, no verification, yet. Nineteen thousand dollars per 
month, per vehicle--$19,000 per month, per vehicle--for a 
Pakistani Navy fleet of 20 passenger vehicles--that's just to 
start off with. And, so that--and so much more--are all 
acceptable under the guise that we need flexibility?
    Mr. Shivers. No, sir. We do need flexibility, but we 
haven't absolved ourselves of any oversight responsibility for 
this task. So, indeed, this is a--as you appreciate--this is a 
multistage validation process that starts at the Embassy, is 
conducted by a two-star general that's resident in Islamabad, 
who discusses the claims that are submitted in quite 
significant detail in many cases, but not in all cases.
    The operations that are referenced by the Pakistani, 
particularly where this is insufficient receipt or 
documentation, those operations are verified by Central 
Command. It then comes up to the Under Secretary of Defense 
Comptroller's Office, which again, evaluates, and reviews, and 
looks at the possibilities for receipts and documentation. 
Attempts to--has numerous conversations with the two-star 
general in Pakistan, has numerous conversations with CENTCOM, 
meets and takes several months to review the process, the 
package that has been presented.
    It then comes to my office, where we look at whether the 
provision of this funding provides any change in the balance of 
power in the region, or interferes with any of national 
security objectives. It goes on to the Deputy Secretary of 
Defense, whose office reviews it. It then comes to Congress, 
and is provided to Congress for 15 days for comment.
    Senator Menendez. I don't mean to interrupt you--I 
appreciate the whole procedural process, it's a procedural 
process that, notwithstanding your description, is clearly 
fundamentally flawed. We're talking about $5.5 billion dollars 
of American taxpayer moneys to reimburse the Pakistani military 
since September 11, and, you know, we see the testimony and the 
statements of many that al-Qaeda has reconstituted itself in 
pre-September 11th strength along this region, that in fact, 
Osama bin Laden is still at large, we see the Chairman of the 
Joint Chiefs of Staff, Michael Mullen, saying, ``I believe, 
fundamentally, if the United States is going to get hit, it's 
going to come out of the planning at the leadership that the 
FATA is generating, their planning and direction.'' Referring 
to Pakistan's Federally Administered Tribal Areas and he goes 
onto say, he says, ``I'm not saying it's guaranteed it's going 
to happen, or that it's imminent, but clearly we know the 
planning is taking place there.''
    So, $5.5 billion later, a whole lack is, in my mind, of 
accountability, you know, not necessarily, you have to spend 
$5.5 billion to achieve the goal of engagement with Pakistan, 
and then--and the results notwithstanding the administration's 
constant statements is that we have a stronger al-Qaeda in this 
region.
    I find it difficult to understand how, in fact, you can 
come before the committee and basically not take a greater 
ownership of a system that is flawed, in terms of how you are 
spending the taxpayers' money.
    Mr. Shivers. Sir, I don't think I have tried to absolve 
myself of responsibility in any way, shape, or form, nor has 
the Defense Department. We provided 17 pages of informal 
responses to the GAO on this, and as I began my reply to your 
question, I would say that the entire senior leadership of the 
Defense Department is on this. We care about it, we care about 
how we steward the American people's money, and we're very 
serious about obtaining the results that----
    Senator Menendez. I would simply say that the three points 
in which you're listed officially in the response are far from 
acceptable from my point of view, in terms of how we're 
spending our money.
    Let me turn to, as we move forward, at this point, we're in 
the process of a $750 million, 5-year program for development 
in the FATA region. These funds presumably would go to reach 
the communities and populations where the very people who are 
participating in the planning that the Chairman of the Joint 
Chiefs of Staff has talked about, are currently based.
    How is the planning strategy for your development 
programming through AID different in a counterinsurgency 
environment from a more typical developing country context?
    Mr. Ward. Let me mention two ways, Senator. One is that in 
deciding where we're going to work in the tribal areas, we're 
doing a lot more than just talking to--let's start with 
education, for example, we're going to talk to a lot more 
people than education officials. We're also going to talk to 
our military, we're going to talk to the intelligence 
community, we're going to find out, what are those areas in the 
tribal areas where an education intervention will be most 
effective in terms of winning hearts and minds in a 
counterinsurgency strategy.
    If you were to look at how we make a decision, just to 
contrast that with, say, the settled areas in Pakistan, or in 
another country in which we might be working in the region, our 
discussion would probably be limited to the government ministry 
responsible for education, we wouldn't have those broader 
discussions. So, that's one way it's different.
    And then another way that it's different, that I mentioned 
in my opening remarks, which slows us down, but I think is 
terribly important in an area like the tribal areas where 
illiteracy is so high, and where communities have not been 
connected to their government since they've been Pakistan, and 
that is by planning community interventions at the community 
level--taking the time to get villages together, to get 
communities together and ask them what they need.
    And then discussing with them the tradeoffs of what they've 
said they need, for example, most communities, when you ask 
them, will say, ``We need a school.'' Well, maybe school isn't 
the best thing, maybe it is. But they need to be thinking about 
operating and maintaining that school, where will the teachers 
come from, where will the textbooks come from? And having that 
kind of a discussion with a community to help them set 
priorities--they've never had those discussions before.
    And so, this is also a hallmark of our new program, it will 
make it a little slower. But what we're doing, in addition 
then, to meeting their needs, is we're building their capacity 
to participate in governance.
    Senator Menendez. Well, I would think that to some degree 
any of our development assistance would engage the entities 
that we are trying to help, and so I appreciate that. But how 
does that work in the context of a counterinsurgency situation?
    For example, I understand that there is a significant lack 
of coordination between the civilian and military elements of 
the Pakistani Government, and that is a critical road block for 
progress. I mean, how does that play into your equation? 
Because otherwise, what I hear is, we're pursuing a development 
assistance as if we were pursuing development assistance 
anywhere in the world. The difference is that we are talking 
about a region in which planning is taking place for attacks 
upon the United States, and locals are often either giving 
cover to those entities, are afraid of those entities, are 
engaged with those entities. I wouldd hate to see our 
development dollars go in a way that doesn't pursue our 
ultimate goal, and I don't see a differentiation in your 
answer.
    Mr. Ward. What I was describing is what is the United 
States Government doing. Clearly, there is room for improvement 
on understanding a counterinsurgency approach in the Pakistani 
Government, and as I said in my opening remarks, we're very 
hopeful that how we've learned to do civil-military 
cooperation, we can start teaching the Pakistanis.
    They learned some terrific lessons, sir, after the 
earthquake. They saw--because they had to--that they could work 
with the civilians, and they did a very good job. We need to 
show them how to bring that to bear in the tribal areas, as 
well, as you're suggesting.
    We think we're getting better at it, all the time, but we 
need to start teaching them how to do it, as well.
    Senator Menendez. Thank you, Mr. Chairman, I look forward 
to exploring this, maybe, at the subcommittee at a future date.
    The Chairman. Thank you very much.
    Thank you for your patience, Senator Cardin.

             STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Thank you, Mr. Chairman. Thank you for 
holding this hearing.
    One of our major responsibilities is to assure that the 
funds that are made available through the U.S. taxpayers are 
being properly spent. And I appreciate the concern that has 
been expressed here in the working relationship between the 
United States and Pakistan, and the concerns on the 
conditionality of U.S. funds.
    There are substantial dollars being made available by the 
United States to Pakistan, whether it's counterterrorism 
dollars, economic development dollars, funds for the tribal 
areas. And as it has been pointed out, there's serious question 
as to whether these funds have been used appropriately by the 
Pakistani officials over the last several years.
    So, I have a question for you. We have a responsibility to 
make sure that these funds are being spent appropriately. You 
have a concern about conditionality as it relates to the 
working relationship between the United States and Pakistan. Do 
you have any specific recommendations for how Congress can 
carry out its independent responsibility to the taxpayers of 
this country, to make sure that these funds are being spent for 
its appropriate purposes?
    Mr. Boucher. Sir, if I can take that on.
    I think, you know, the things that Chairman Biden cited at 
the beginning--the need to make very clear that we're long-term 
friends, and not short-term acquaintances, the need to support 
fundamental change and not just be seen as focused on one 
particular area, the need to avoid any impression that if we, 
you know, finish the fight against terrorism, we're going to 
walk away. You know, those are very strong, very important 
things for all of us, and we need to work out, how do you do 
that? And I think we basically think that if you, you know, you 
say you have to do this or that or the other, it makes this or 
that or the other the absolute criteria, and reinforces the 
impression----
    Senator Cardin. I agree with what Senator Biden said. My 
question is, Do you have suggestions to make sure that the 
dollars we are appropriating are appropriated in rather 
specific categories: Counterterrorism, economic development, 
tribal issues on national security--how do we make sure that 
those funds are being properly spent, if we don't have 
conditionalities, looking at the prior history?
    Mr. Boucher. I think there's two things--one is you make 
sure that we have responsible systems for making sure the money 
is spent well, and is spent for the purposes that it's 
destined.
    And the second is, to identify the enabling environment 
that the Pakistanis need to provide. So, if you spend money on 
education, the teachers are going to be there. So, that if you 
spend money on economic reform, that they're undertaking the 
budgetary measures and the fiscal measures to make sure that it 
can be effective.
    So, specific, sort of, line-item conditionality, I think, 
is something we object to, but we do want to make sure that the 
Pakistanis are creating the right enabling environment to make 
the money successful and effective.
    Senator Cardin. Well, I understand your concern. Our 
problem is that when we just go down that path, and the 
spotlight's turned off, a lot of times the moneys get spent in 
a way that's not consistent with congressional intent. And I 
think that's been the concern of many of us here.
    Let me go on to a separate issue. Over the history of the 
United States aid to other countries there have been different 
views as to whether the visibility of U.S. help is helpful, or 
not. Can you just bring us up to date as to the current 
circumstances in Pakistan, is it a good idea to have USAID 
labeled on the assistance that we're giving? Or is this an 
issue that we have to be a little bit more circumventive about?
    Mr. Ward. Certainly; it's our general position that the 
people need to know that the people of the United States are 
helping, absolutely. And there's no better example of where 
that helps than after the earthquake. It's why Assistant 
Secretary Boucher and I are so committed that we never leave 
Kashmir. We had the opportunity that the earthquake offered us 
to take our assistance programs there. We were not there 
before. And I hope we don't have to leave for a very long time. 
We're still very welcome and the people see us there. They saw 
us there with our military after the disaster struck, they've 
seen us there month after month after month, rebuilding schools 
in extremely difficult places up to seismic standards that 
parents can trust when they decide to send their kids back to 
school.
    There are exceptions to the general proposition, and we 
have to be particularly careful in the tribal areas, both out 
of concern for the safety of people carrying out our programs, 
and also because it's very important for us that the Government 
of Pakistan be seen as providing services to the people in the 
tribal areas. So, in that small area of the country, there is a 
big program, but we are taking a different approach on how we 
talk about the fact that it's from the United States.
    Senator Cardin. So, this is an issue that you actively work 
on, as to how visible our partnership with the Pakistani 
Government is viewed by the people of Pakistan? It's a 
strategy?
    Mr. Ward. It's something we talk about a lot. We try not to 
have one approach fits all. In Afghanistan, for example, we try 
to talk about what both countries are doing together. That's a 
different approach.
    Senator Cardin. Secretary Boucher, I want to get to the 
relationship with the United States, the new civilian 
government, and our previous support for the President, what 
impact that is having on our ability to forge the proper 
partnership with the current civilian government.
    You mentioned the most recent announcements, in regards to 
the tribal areas. If you could be a little bit more specific as 
to how you see the relationship today, and the strengths, the 
weaknesses, and what we need to do to improve our partnership 
with the new civilian government?
    Mr. Boucher. I think--I think first of all, we just have a 
very good relationship with the new leaders. The President has 
met the Prime Minister and talked to him several times. The 
Secretary had a meeting with the Foreign Minister in Paris last 
week. We've had visits back and forth with politicians. I'll be 
out there next week, as I think you will, as well. So, we have 
a very active relationship.
    Where it needs to be strengthened, I think, is for us to 
understand a bit more clearly the program that the new 
government wants to undertake. There have been a lot of 
political distractions in the coalition. And as they have 
started to focus more now on their counterterrorism policy, but 
also on food and energy, some of the crucial areas. What are 
they going to do in education? We are going to have to work 
with them to adjust our programs and make sure we're supporting 
the civilian government's program, but that's something we're 
committed to doing. And we hope that they can actually, sort 
of, get that focus sooner rather than later.
    Senator Cardin. There have been a lot of press accounts 
about the effectiveness of the current government, as well as 
the support for the United States within Pakistan. You seem to 
minimize those concerns, or at least giving a very optimistic 
forecast about our relationships.
    Mr. Boucher. I think--I think we're off to a good start 
with the politicians. I think we still have an enormous deficit 
with the public at large.
    Senator Cardin. Let me ask one last question, and that 
deals with a point that Senator Casey raised on the nuclear 
controls within Pakistan. And I want to expand that a little 
bit. This initially became a concern for the United States 
because of a race between India and Pakistan for nuclear weapon 
capacity. How would you characterize the current relationship 
between India and Pakistan, as it relates to nuclear 
nonproliferation, and our concerns as to whether we have a 
potential problem when there's a change in leadership in one of 
these countries?
    Mr. Boucher. Over the last couple years, they've taken some 
steps, specifically in the area of confidence-building measures 
on security matters, and we've welcomed those and supported 
those steps. The two sides have now reengaged since the new 
government came in Pakistan, on this sort of overall reduction 
of tensions, trying to build new economic ties, trying to do 
some things, maybe that haven't been done before. We certainly 
want that process to continue, we want process on Kashmir to 
continue, process--progress on some of the specifics involved 
with that issue, to continue.
    I guess my reading of it currently, is that they've worked 
on the economic and political sides of improving their 
relationship, both put a lot of emphasis on going that way. I 
don't think I've seen any new developments yet on the, sort of, 
military-confidence building side yet.
    Senator Cardin. I take it this a high interest though, to 
try to encourage these discussions?
    Mr. Boucher. Very much, it's part and parcel of every 
discussion we have with the Pakistanis and with the Indians, to 
make sure that they know full--fully of our strong support for 
reduction of tensions and really making some progress in 
resolving fundamental issues.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator. Thank you very much. Do 
you have any further questions to present?
    Senator Cardin. No.
    The Chairman. Thank you very much for your time.
    Mr. Shivers, I look forward to us working out a time when 
you can brief the committee of some of the things we're not 
able to talk about today.
    Gentleman, thank you.
    Our next panel is our former Ambassador, as well as our 
former CENTCOM Commander. We invite them to the table.
    Folks, welcome. Thank you for your patience.
    General Zinni, why don't we begin with your testimony?

  STATEMENT OF GENERAL ANTHONY C. ZINNI, USMC (RET.), FORMER 
          COMMANDER, CENTRAL COMMAND, FALLS CHURCH, VA

    General Zinni. Thank you, Mr. Chairman, Senator Lugar.
    First of all, sir, I have a statement that I would like to 
submit for the record.
    The Chairman. Your entire statement will be placed in the 
record.
    General Zinni. I would just like to say briefly, that first 
of all, I enthusiastically support this proposed legislation. 
It's a long time in coming, and way overdue. I think that the 
whole concept of us looking at this in a comprehensive, 
strategic, long-term, and balanced way is what we've needed.
    Many of the issues I've heard discussed here with the first 
panel and the concerns we have, I think we will find ways to 
better address these because of this approach. I think you've 
discovered what we've all believed, and I know both of you have 
believed, that the center of gravity in this business, if it's 
an insurgency or anything like it, is the people.
    And I appeared last before this committee representing 52 
retired generals and admirals, saying that we needed more 
resources and more structure and more emphasis on the 
nonmilitary pieces. That's what's going to win this in the long 
run, that's what's going to build the trust and the credibility 
amongst the Pakistani people, particularly in the tribal areas, 
to be willing to support the things--the areas where we have 
mutual interest, particularly security interests.
    I really appreciated your comments about, in the past, this 
has been transactional. We--and it's basically been just 
addressing security issues, and primarily security issues that 
were of our concern. I went through a long period with the 
Pakistanis for over 16 years, and trying to build a 
relationship that was more than just a thin thread of military-
to-military relationship, and usually it was just a thin thread 
of a personal relationship between the Commander of CENTCOM and 
the Chief of the Military in Pakistan.
    I think as we look at each of these issues, it's important 
to--to remember that the Pakistani, by latest surveys, do want 
a positive relationship with the United States and do see that 
if we look at these nonmilitary issues, and address them in the 
long term, that they see there can be common ground that we can 
find, and that's encouraging.
    Obviously, what's discouraging is the different views we 
have on the threat and how to address them. Obviously, it is an 
insurgency in nature. Insurgents want fear, apathy, or support 
from the people, and we're trying to get courage, commitment, 
and rejection. And the only way we're going to win that battle 
is both us and the government of Pakistan really paying 
attention to the people and their needs, and showing them there 
is a better way.
    So again, for you, Mr. Chairman, Senator Lugar, I really 
appreciate this bipartisan effort. It's a breath of fresh air 
and it's been long needed.
    Thank you.
    [The prepared statement of General Zinni follows:]

Prepared Statement of GEN Anthony Zinni, USMC (Ret.), Former Commander, 
                   Central Command, Falls Church, VA

    Mr. Chairman, Senator Lugar, members of the committee, as always it 
is a great honor and my pleasure to be before you again, and I truly 
appreciate the opportunity to discuss U.S.-Pakistan Relations. I 
believe that this relationship is absolutely critical to the national 
security of the United States, and I know that you and the members of 
this committee share that view. In that spirit, I thank you for the 
critical thinking and effort that have gone into developing your 
comprehensive strategy for an enhanced partnership with Pakistan.
    Things are tense in Pakistan today, and I believe it is safe to say 
that the U.S.-Pakistan relationship is similarly under stress. I just 
reviewed the recently released poll by Terror Free Tomorrow, and I was 
surprised and disturbed by many of the findings. Specifically, half of 
all Pakistanis want their government to negotiate with al-Qaeda rather 
than fight. Seventy-four percent oppose U.S. military action against 
al-Qaeda and the Taliban, and 52 percent believe that the United States 
is most responsible for the violence that is occurring in Pakistan 
today. How did we get to this? How can the people of this country--a 
country that has lost thousands of soldiers and citizens to violent 
extremists; a country that saw one of its great political leaders 
assassinated by terrorists; a country whose citizens are clearly on the 
frontlines in the war on terror--believe that the United States is 
responsible for the violence they face?
    Results such as these require an urgent and comprehensive 
evaluation of our policy, and more importantly, a prescription to put 
our relationship on surer footing for our mutual benefit. Despite the 
disturbing aspects of this poll, it also provided insight into what 
hope remains for our relationship. There is a silver lining to be 
found. According to the poll results, the Pakistani people remain eager 
to have a strong and vibrant relationship with the United States, and 
they identify very specific actions that we can take to make a 
difference. According to the poll, two-thirds of Pakistanis said that 
increased American business investment, free trade, and U.S. assistance 
in education, disaster relief, and medical care and training would 
significantly improve their image of the United States. We should not 
seek to improve our image for the sake of improving our image; 
improving our image is valuable insofar as it creates a climate that 
fosters greater cooperation in the areas that are important to both 
countries. An atmosphere of resentment, suspicion, and ill will makes 
it difficult for many Pakistanis to see the many common interests our 
two countries have. Changing this climate will allow us to work 
together.
    I have reviewed the legislation that this committee is considering, 
and I believe that it provides a framework for just such a positive 
change. Specifically, the increased financial assistance would provide 
for the expanded programs that are needed to return our relationship to 
a more sound footing. More significantly, the legislation recognizes 
that money and programs alone will not move the U.S.-Pakistan 
relationship from where it is today to where it needs to be in order to 
improve the security of both countries. That is why I was particularly 
pleased to see that your legislation included operating expenses for an 
increased U.S. diplomatic and development presence in Pakistan, and 
that nonmilitary tools designed to improve and highlight additional 
facets of our relationship were included.
    Mr. Chairman, as you know, I am the cochairman of the National 
Security Advisory Council at the U.S. Center for Global Engagement. Our 
council, which includes more than 50 retired flag officers, endorses 
exactly this kind of Smart Power. I believe we could use this 
legislation to endorse other ``Smart'' initiatives, such as the 
Reconstruction Opportunity Zones concept, agricultural initiatives, 
energy proposals, and efforts to increase access to health care. I urge 
you to explore and endorse all of these.
    Smart Power alone is not enough, of course; our robust engagement 
with the Pakistan military and security services is, and will remain, 
vitally important. While the draft legislation I reviewed includes a 
discussion of security assistance, it outlines a number of ``security 
benchmarks'' that will undoubtedly cause more tensions in Islamabad and 
Rawalpindi. Security assistance is critically important today and will 
remain so, and I recommend that you authorize a robust package of 
support. Moreover, while I recognize and support the goals of your 
security benchmarks, I believe that at this time we would be better 
served to have these important discussions in private--military to 
military, diplomat to diplomat, Senator to Member of Parliament.
    In addition, on the security side, Pakistani security forces still 
lack ``force multipliers'' such as night vision and other capabilities 
that alter the battle space. Restrictions in the Foreign Assistance Act 
make it virtually impossible for us to provide those capabilities. Even 
they have a chilling effect on the actual use of some equipment because 
of extensive end-use monitoring requirements. I hope that this 
committee will look to streamline those sections of the Foreign 
Assistance Act that deal with arms transfers in order to truly enable 
the Pakistani military to have the kind of advantage that will build 
their security and ours and encourage them into a more fruitful and 
trusting relationship with the United States.
    There is much the United States can do to help address the most 
critical security, economic, and development needs of Pakistan. 
Pakistan will continue to be one of the most strategically important 
nations in the world for a good time to come, and our safety and 
security will continue to depend on its stability. I hope that this 
administration, the next administration, and the Congress will make it 
their priority to work together to increase U.S. engagement with 
Pakistan across the board. There is almost no task more important to 
our future, and I, and many others outside the Government, stand ready 
to help.
    Thank you again for the opportunity to discuss this vital 
relationship and to comment on the important work that you and this 
committee are undertaking. I look forward to answering your questions.

    The Chairman. Let me say, General, I'm sure I need not 
speak for Senator Lugar, but I'm sure we both would acknowledge 
that your endorsement of this is a big deal. You're greatly 
respected, and I appreciate the endorsement. Hopefully, we can 
actually get something moving here.
    Madame Ambassador.

STATEMENT OF HON. WENDY CHAMBERLIN, PRESIDENT, THE MIDDLE EAST 
                   INSTITUTE, WASHINGTON, DC

    Ambassador Chamberlin. Thank you, Mr. Chairman and Senator 
Lugar.
    General Zinni, I certainly would like to agree with 
everything that you've said.
    And, Mr. Chairman, with your remarks, as well. It's an 
honor to appear before the committee, particularly to endorse, 
with enthusiasm, this proposed legislation.
    I'll try to keep my remarks brief. I really have three key 
points and many of them have already been made, including by 
yourself, sir. This legislation recognizes the enduring linkage 
between the United States and Pakistan's security, and our 
interests in the long term.
    Second, it's sufficiently bold and comprehensive in scope 
to address a lot of the current problems that we've been 
talking about this morning. And finally, it focuses assistance, 
I believe, on the right place, and that is on the welfare of 
the people of Pakistan.
    Let me try to see if I'm nimble enough to skip over some of 
the parts in my statement and submit it also for the record.
    The Chairman. The entire statement will placed in the 
record, and take your time, you waited.
    Ambassador Chamberlin. Well, thank you. I may have to 
adjust some of the statistics to bring them up to date after 
hearing what the panel before us had said.
    But, on the first point, the terrorist attack on our soil 
on September 11, 2001, was a stark example of how global 
ization has compressed our world for both good and ill. It's a 
shrinking world, and this means that what is happening in 
Pakistani communities and villages thousands of miles away, is 
vital to protection of our own homeland.
    When tribal leaders provide protection and hospitality to 
al-Qaeda fighters in remote regions beyond the writ of law, 
it's no longer just a local problem for Pakistanis. When 
terrorists disappear into those teeming urban slums of Karachi, 
it becomes an urgent issue for Americans. So, Mr. Chairman, my 
first point is that this legislation is right to identify 
Pakistan as a frontline state that deserves our attention.
    For too long I think our focus has been distracted, and our 
efforts have been diluted in Pakistan. We've launched a war 
extensively against al-Qaeda in Iraq, and in doing so we 
created some of the varied conditions for it to flourish there. 
We've deployed, I believe, too few forces in Afghanistan to 
create stable conditions for reconstruction. And to the point 
of this legislation, we viewed the security effort in Pakistan 
from a very limited lens of the Afghan frontier.
    The value, I believe, of this legislation, is that for the 
first time since 9/11, it focuses our efforts on the right 
place: The entire country of Pakistan. It recognizes that our 
relationship with Pakistan is for the long term, with the whole 
country.
    Mr. Chairman, I believe that by confronting challenges and 
the economic needs of the Pakistani people, the legislation 
also contributes to the protection of American people from 
those foreign terrorist threats.
    You know, the media often refers to Pakistan as the most 
dangerous country in the world, and I think this is partly true 
and partly a bit of an overstatement, because it diminishes a 
lot of the core values that we do share with Pakistan.
    An Indian friend of mine told me recently that Pakistanis 
and Indians share the same DNA. Like India, Pakistan was 
founded on the principles of a democratic state. It had several 
military dictatorships, to be sure, but this election last 
February, brought Pakistan back to the vision of its founding 
father by installing a democratically elected civilian 
government. Well, we're on a good footing here.
    Throughout the decades, Pakistan has been a close security 
ally of the United States. It's been a Central Pact member to 
contain the Soviet threat, and it helped us drive the Soviets 
out of Afghanistan. We all also appreciate the alacrity with 
which President Musharraf reversed entrenched Pakistan Army 
policy of support for the Taliban when we asked him to do so 
immediately following September 11.
    So, in short, the stability and well-being of Pakistan is 
in our interest. We share common values and we have a history 
of cooperation. This legislation is commendable because it 
articulates a comprehensive strategy for Pakistan well into the 
future.
    My second point is that the legislation offers a bold and 
innovative solution that thoughtfully addresses problems in our 
relationship with Pakistan that we've seen over the years. It 
incorporates and it builds on lessons of the past.
    To be fair to the previous panel, we have made progress in 
our relations with Pakistan since I first arrived there as 
Ambassador in August 2001. Since 2002, we have provided 
substantial assistance, both military and in development aid, 
but it hasn't been balanced. It's been too skewed, frankly, to 
security and militarily aid, and not enough, in my view, to 
development aid and humanitarian aid that reaches the Pakistani 
people.
    It's simply not enough. We have not provided enough 
development aid to the Pakistani people, to affect the 
perceptions of the population. This gets to several of the 
questions that were raised this morning.
    So, in summary on this point, our current aid program is, 
at best, having minimal impact on the people and at worse, it's 
breeding resentment among the Pakistani population, that we 
favor one institution, the Army, over the interests of the 
civilians.
    This legislation is a stark departure from that status quo, 
and I commend it. It is sufficiently bold enough in scope to be 
effective, and I believe that only with an aid effort on the 
scale and ambition presented in this legislation will we be 
able affect the deeply skeptical Pakistani population. Our aid 
must be transformative.
    It's a common weakness in aid programs--and this gets to 
another question that was raised this morning--that we often 
refer in our aid programs to the amount we spend. We allocated 
$10 million on education projects. We allocated $8 million on 
child health. It becomes an accounting issue when it ought to 
be an accountability issue.
    With this legislation, we must build in efforts to measure 
the programs and our assistance by the impact it has on the 
lives of Pakistanis. I'd rather know that 10 million children 
were literate because of our education programs, not how much 
money we spent on it. I'd rather know that a million new jobs 
were created, rather than the money that we spent on job 
creation programs. The measure is to impact people's lives, and 
we should measure our aid in terms of results.
    Now, this isn't easy. If we hope to impact a population as 
large as Pakistan's--and many have pointed out that it is the 
second largest Muslim country in the world, with 160 million 
people--it's going to require a significant investment. We 
ought to know this right up front. This legislation admirably 
makes that commitment. I honestly believe that anything short 
of the $1.5 billion proposed, annually, runs the risk of 
failure.
    Another critically important element of this legislation, 
and one that distinguishes it from past practice and 
strengthens its chance for success, is its timeline. It's over 
the long term. A 10-year commitment for development aid would 
go a long way towards overcoming a widespread perception that 
the United States is a fickle friend, as you mentioned 
yourself, Mr. Chairman.
    In the immediate aftermath of 9/11, when Congress moved 
swiftly to lift sanctions and resume our assistance, I was 
Ambassador there and encountered some fierce and deeply rooted 
conviction among the general population, intellectuals, and 
Pakistani officials that we were just setting Pakistan up for 
another fall. They lamented that the United States had dropped 
Pakistan abruptly after they'd helped us drive the Soviets out 
of Afghanistan. A careful review of history, would show them 
why sanctions were imposed: Because of our legitimate concerns 
about their development of a nuclear weapons program. It didn't 
matter; they weren't listening. It's hard to do. To them, there 
was one notion, that we abandoned them.
    So, I honestly believe that unconditional aid over a 10-
year period, that you're proposing here, will help disabuse the 
public of this false notion that we had abandoned them. Public 
support in Pakistan and buy-in for our aid program is going to 
be essential to its success. This gets us over the threshold.
    Another strength of the legislation is that it focuses on 
transparency and accountability to the people. Now, my remarks 
here really get to the question that we had in the earlier 
panel about conditionality.
    In a poll taken in December 2007, I think we only had an 
approval rating of 15 percent. One of the reasons it's so low 
is that the people think that we're pursuing our own interests 
in Pakistan, those being counterterrorism and only along the 
border, and that we really are not concerned about what matters 
to them and their lives and their families.
    You know, this doesn't have to be. As several people 
pointed out this morning, we have evidence that when we do 
provide generous assistance efficiently and directly to the 
neediest people of Pakistan--as we did right after the 
earthquake--things change, attitudes change. In fact, right 
after the earthquake, U.S. approval ratings spiked to 45 
percent. It's now down at 15, but it had been at 45, as a 
result of the way we delivered our assistance directly to the 
neediest people.
    So my comment here is that our current aid program is 
structured in a way that draws criticism, and draws criticism 
from many of our own observers, as well. We saw that in the GAO 
report. The charge that we've seen is that it's had little 
impact on our counterterrorism effort, that al-Qaeda camps have 
reconstituted in Pakistan, Taliban extremists attack United 
States and NATO forces across the border from safe havens 
inside Pakistan, and that the Pakistani Army has made too 
little inroads into stopping that.
    But, to be fair, Pakistani communities are also victims of 
this internal terrorism. They want what we want. They want to 
be able to send their daughters to the market without fear of a 
suicide bomber. They are also interested in effective action 
against extremists that are, as we learned in Anbar, affecting 
their communities as well. We saw this in the election in this 
last election when the Pakistani voters voted in the Awami 
National Party, a secular Pashtun party, because it was a 
reaction to the extremists letting off bombs in local 
marketplaces.
    My point here is that both Pakistani people and Americans 
want better results along the frontier against the extremists. 
So, this legislation is right to tie security to performance. 
And it won't be easy; conditioning is a neuralgic point in 
Pakistan. They historically see conditioned aid as a colonial 
practice that belittles the recipient. That's certainly not 
what we want. We do not intend to put any aid recipient through 
a cumbersome, bureaucratic exercise, but what we really want is 
to ensure that funds are used in a way that meets the intended 
objective. We want impact, and so do Pakistanis.
    Along with impact, the Pakistani people want transparency. 
So do we. And I think this legislation and the provisioning and 
the conditioning provision accounts for that. These funds are 
meant to provide greater security for our populations, and so 
it stands to reason that the people should be able to see how 
it's used. Their officials should be accountable for budgets, 
even if those funds are provided through our assistance 
procedures. And ultimately, the people must feel more secure in 
their communities and in their city streets.
    And the final innovative point--because I really like this 
legislation--and maybe one that I believe is the most important 
and should have mentioned first, is that it focuses on the 
people of Pakistan. The legislation provides a significant 
increase in aid for education, health, market roads, job 
creation, and not just for FATA, but for all of Pakistan.
    The strength of this legislation is that it greatly 
increases our nonsecurity aid. It's directed at the civilian 
population.
    Mr. Chairman, Pakistan is an extremely complicated society, 
as you point out. It is indeed fragile, and it is indeed one of 
the most dangerous places on the earth. But we can be 
successful there; we can build on our positive history of 
cooperation, common values, and our concern for the citizen of 
Pakistan. We can find solutions.
    I believe that this legislation has thoughtfully assessed 
United States-Pakistan relations. It compensates for some of 
the misjudgments and some of the weaknesses in our current 
approach, and it takes U.S. equities into account to protect 
our people, as well. It crafts a program that is both in 
American interests and in the interest of the Pakistan people. 
In short, it's a win-win.
    And if it's approved in its entirety, so that the bill's 
generosity and pragmatism is preserved, then this legislation 
could have a significant impact on our relations in this most 
critical country.
    Thank you very much for giving me this opportunity.
    [The prepared statement of Ambassador Chamberlin follows:]

      Prepared Statement of Hon. Wendy J. Chamberlin, President, 
                 Middle East Institute, Washington, DC

    Mr. Chairman, members of the committee it is an honor to have the 
opportunity to appear before the committee this morning. It is 
especially a privilege to be able to comment on a piece of proposed 
legislation that I support with enthusiasm.
    I will be brief in my remarks this morning but would like to make 
three key points. The legislation recognizes the critical linkage 
between U.S. and Pakistan security interests. It is sufficiently bold 
and comprehensive in scope to address current problems. And, finally, 
it focuses U.S. assistance on the right place . . . on the welfare of 
the people of Pakistan.
    Regarding my first point, the terrorist attack on our soil on 
September 11, 2001, was a stark example of how globalization has 
compressed our world both for good and for ill.
    A shrinking world means the well-being of Pakistani communities 
thousands of miles away is vital to the protection of Americans in our 
homeland.
    When tribal leaders provide protection and hospitality to al-Qaeda 
fighters in remote regions beyond the writ of law, it is no longer a 
local problem.
    When terrorists disappear into the teeming urban slums of Karachi, 
it becomes an urgent issue for America.
    Mr. Chairman, my first point is that this legislation is right to 
identify Pakistan as the frontline state that deserves our attention. 
For too long, America's focus has been distracted, and its efforts 
diluted. We launched a war ostensibly against al-Qaeda in Iraq, 
creating the very conditions for it to flourish.
    We deployed too few forces in Afghanistan to create stable 
conditions for reconstruction. And, to the point of this legislation, 
we have viewed the security effort in Pakistan from the very limited 
lens of the Afghan frontier.
    The value of this legislation is that for the first time since 9/
11, it focuses our efforts in the right place--the entire country of 
Pakistan.
    Mr. Chairman, I believe that by confronting the challenges and 
economic needs of the Pakistani people, the legislation also 
contributes to the protection of the American people from foreign 
terrorist threats.
    The media often refers to Pakistan as the ``most dangerous country 
in the world.'' I personally believe this is an overstatement--one that 
diminishes core values we share with Pakistan.
    An Indian friend recently commented to me ``we share the same DNA 
as the Pakistanis.'' Like India, Pakistan was founded on the principles 
of a democratic state. It has had several periods of military rule to 
be sure, but the election last February brought Pakistan back to the 
vision of its founding father--installing a democratically elected 
civilian government.
    I hardly need to remind this august body that Pakistan has been a 
reliable ally of the United States throughout the decades. Pakistan 
became a CENTO pact member to contain the Soviet threat in the 1950s 
and was instrumental in the successful campaign to drive the Soviets 
out of Afghanistan in the 1980s. And we all appreciate the alacrity 
with which President Musharraf reversed an entrenched security policy 
of support for the Taliban, when we asked him to join us following 
September 11.
    In short, the stability and well-being of Pakistan is vital to the 
interests of the United States; we share core values and have a history 
of cooperation. This legislation is a commendable initiative to 
articulate a comprehensive strategy for Pakistan.
    My second point is the legislation offers a bold and innovative 
solution that thoughtfully addresses problems in our relations with 
Pakistan. It incorporates and builds upon the lessons of the past.
    To be fair, we have made much progress in our relations with 
Pakistan since I first arrived as Ambassador in August 2001. At that 
time we had placed Pakistan under sanctions for its continued 
development of a nuclear weapons program and had suspended all security 
and development assistance.
    Since the end of 2002 we have provided over $11 billion in aid. 
Unfortunately, it has not been balanced. Over 90 percent of the aid has 
been delivered to the Pakistani military, largely as compensation for 
deployments along the border. Our $100 million in annual developmental 
aid, which is managed by USAID, was a big jump from zero, but it is 
simply not enough to have an impact on the society or affect 
perceptions of the population. In short, our current aid program is at 
best having little impact, or worse, breeding resentment among the 
population for U.S. favoritism toward the Army.
    This legislation presents a stark departure from the status quo.
    It is sufficiently bold in scope to be effective. I believe that 
only with an aid effort on the scale and ambition presented in this 
legislation will we be able to affect the deeply skeptical Pakistani 
population.
    Our aid must be transformative. A common weakness in aid programs 
is that they often are reported in terms of the total sums spent. ``We 
allocated $10 million on education projects, $8 million on child 
health, etc.''
    This time we must measure the program by the impact it has on the 
lives of people. I would rather know that 100 million children are 
literate because of American aid projects, or that a million new jobs 
were created. These measures impact people's lives. We should measure 
our aid in results.
    This is no easy task. If we hope to sway a population as large as 
Pakistan's--with over 160 million people--it will require a significant 
investment. This legislation admirably makes that commitment. Anything 
short of $1.5 billion annually runs the risks failure.
    Another critically important element of this legislation, one that 
distinguishes it from past practice and strengthens its chances for 
success is its timeline. A 10-year commitment for development aid will 
go a long way toward overcoming the widespread perception that the 
United States is a fickle friend.
    In the immediate aftermath of 9/11 when Congress swiftly lifted 
sanctions and we resumed military and development aid, as Ambassador to 
Pakistan I encountered a fierce and deeply rooted conviction that the 
U.S. was simply setting up Pakistan for another fall. My interlocutors 
lamented that the U.S. had dropped Pakistan abruptly after it had 
helped us drive out the Soviets from Afghanistan. Careful review of the 
history had little effect in dissuading educated officials, let alone 
the larger population. To Pakistan, we had abandoned them.
    Unconditional, multiyear aid over a 10-year period will do a great 
deal to disabuse the public of this false notion. Public support and 
buy-in for the aid program is essential to its success.
    Another strength of this legislation is that it focuses on 
transparency and accountability to the people.
    One of the reasons why U.S. approval ratings are so low in 
Pakistan--only 15 percent in December 2007--is that the people believe 
we are only pursuing our own interests and have no care for their 
concerns.
    They believe we care only for counterterrorism efforts along the 
Afghan frontier. The fact that we provided the lion's share of aid in 
Coalition Support Funds to the Pakistan Army and only a fraction to 
civilian programs through USAID is held up as evidence.
    We have evidence that aid changes perceptions in Pakistan. American 
aid in the aftermath of the Pakistani earthquake was distributed 
generously, efficiently and directly to the most needy people. Our 
approval ratings spiked to 45 percent.
    The way our current aid program is structured draws criticism from 
American observers as well. They charge that we have seen very little 
impact for our investment in the counterterrorism effort. The Pentagon 
provides $100 million to the Pakistani military monthly, yet al-Qaeda 
camps have reconstituted in Pakistan; Taliban extremists attack U.S. 
and NATO troops from safe havens in Pakistan, and the Pakistani Army 
has made few arrests.
    To be fair, Pakistani communities are also victims of internal 
terrorists. They want to be able to send their daughters to the local 
market without fear of a suicide bombing. They have the same complaint. 
Both the Pakistani people and the Americans want better results.
    This legislation ties security aid to performance. This won't be 
easy. Conditioning aid is a neuralgic point with Pakistanis. 
Historically, Pakistan viewed conditioned aid as a colonial practice 
that belittles the recipient. In the case of this legislation, however, 
I believe it is an approach that serves both our interests.
    I am sure the authors of this legislation do not intend to put any 
aid recipient through a cumbersome bureaucratic exercise. What we 
really want is to ensure that funds are used in a way that meets the 
intended objective. We want impact. So do Pakistanis.
    Along with impact, the Pakistani people also want transparency. So 
do we.
    These funds are meant to provide greater security for both our 
populations, so it stands to reason that the people should be able to 
see how it is used. Their officials should be accountable for budgets, 
even for those funds provided as foreign aid. Ultimately, the people 
must feel more secure in their communities and city streets.
    A final innovative point in the proposed legislation--and maybe one 
that I believe is the most important--is that it focuses on the people 
of Pakistan. The legislation provides a significant increase in aid for 
education, health, market roads, and job-creation. And not just for 
those who live in the FATA, but throughout Pakistan.
    The strength of this legislation is that it calls for greatly 
increased American nonsecurity aid. It is directed at the civilian 
population. And importantly, it is for all of Pakistan, rather than a 
counterterrorism program focused along a small strip of land along the 
frontier.
    The proposed legislation is a bold departure from previous 
practice. It recognizes that we are failing both the American and 
Pakistani peoples in our current approach and it presents an innovative 
solution.
    Mr. Chairman, Pakistan is an extremely complicated society. 
Pakistan may be a fragile and dangerous place, but we can build on our 
positive history of cooperation, common values, and concern for the 
common citizen in Pakistan to find solutions.
    I believe the proposed legislation has thoughtfully assessed U.S.-
Pakistan relations. It compensates for the misjudgments and weaknesses 
in our current approach. It takes U.S. equities into account and 
protects U.S. interests.
    It crafts a program that is both in American interests and in the 
interests of the Pakistani people. In short, it is a win-win program.
    If approved in its entirety, so that the bill's generosity and 
pragmatism is preserved, then this legislation could have a significant 
impact on our relations in this most critical country.
    This is a practical approach and one that I believe can be 
successful. We do not have to stand in the middle of the road with our 
eyes locked on the lights of the truck bearing down on us. We can do 
something about it.

    The Chairman. Thank you, Madame Ambassador. Thank you for 
that robust endorsement. Endorsement from both of you is very 
much appreciated, and I think will affect our colleagues' 
attitudes about this.
    General, let me start with you, if I may. You're known as 
one of the most informed and toughest guys in the Army at the 
time, not many people in the middle of that Kargil conflict 
would stare down the commander of the Pakistani Army, General 
Musharraf, in the midst of a shooting war, you did a heck of a 
job.
    And I'd like to talk with you, I know your expertise goes 
beyond the military side of the equation, beyond the Pakistani 
military. But, I apologize for focusing on the short time I 
have, on that piece.
    You have spoken about the need to improve Pakistan's 
capacity, Pakistan's military capacity, to help the military 
develop a genuine counterterrorism, and counterinsurgency 
effectiveness. And I think you believe that economic aid 
impacts on the ability to do that, because it changes the 
conditions on the ground.
    But tell me, if you could, if it's appropriate in an open 
hearing, how you believe the Pakistani general staff views 
what's in one's hand, I think they know they need--that is, 
additional training and reconfiguration, which is very 
difficult, to reconfigure any military force, in any country, 
democracy or otherwise--how do you think they view the 
assistance to do that from us, and what are the basic, sort of 
fault lines we've got to be careful about not crossing, in 
order to accomplish a better-trained, more capable Pakistani 
military, assuming they have the will to move with it, against, 
terrorists but al-Qaeda, Taliban, and the indigenous groups 
that are causing them great difficulty?
    General Zinni. Well, Mr. Chairman, I think they face 
several dilemmas. One, obviously, they need to maintain a 
strong conventional capability, in their minds, because 
although conditions are better, they still see their primary 
threat on the opposite border.
    And, at the same time, they don't like operating in the 
tribal areas. Obviously, we all know why. It's not the kind of 
conflict they're used to, it's not what they're trained for, 
their law doesn't apply, they don't have the tribal affinity or 
the relationships that would make it easier for the--and as you 
pointed out, they're not really configured for that.
    My feeling is that in order to help them succeed in these 
areas, we should look at capacities that give them edge, for 
example, night vision capability, just as an example. Have we 
provided them the capability where they could operate at night, 
with a tremendous advantage over the potential enemy? The 
answer is no. We gave them first-generation Cobras, a handful, 
that barely are operational, and just don't provide the quality 
or the technology available. And there are other technical 
capabilities that could give them an edge.
    The Chairman. They mentioned that--someone with whom I 
spoke mentioned that specific item. That is night-vision 
capability.
    General Zinni. And the point being that where there's an 
asymmetric edge that they can get, we ought to focus on that as 
opposed to, back up what Ambassador Chamberlin said, we 
shouldn't be looking at the amounts of money that we provide, 
but the end-state, the capacity they get, and measure it that 
way, and then it's easier to see its application where we 
expect it to be applied.
    Second, and again, you've mentioned this, is training. And 
the training isn't just for the Pakistani military--obviously 
it has been discussed, the Frontier Corps, the levies, the 
entire security structure that operates out there. The more of 
the issues and problems that can be handled at a lower level, 
obviously, the better.
    Now, clearly, when they get in over their head, you need 
two-tiered capability in order to react. But they're woefully 
lacking in the kind of quality training, not only the military 
themselves, but also down to the basic security levels needed 
to do the fundamental policing work, the paramilitary work, and 
so on.
    The third area, and one I think we haven't paid enough 
attention to----
    The Chairman. Let me ask you a question on that point, 
because we raised that, as well. Does--General Kiyani, well, 
would the staff of the military view the diversion of funds for 
security to training the local police, the people on the 
ground, as you point out, they are not present, in large 
numbers in the FATA, but there has been, historically, presence 
in the FATA of some security personnel. They tend to be tribal, 
as I understand it, they tend to be local.
    How, in your view, how would they view, maybe diversion is 
the wrong way of saying it--do they view that, you think, as a 
priority to helping them in the region? To go down that next 
level?
    Most people think, when we think of the FATA, and I'll 
stop, is that it only relates to the ability of the Pakistani 
Army to bring any physical security to the region, and that's 
not how it's structured.
    General Zinni. Right.
    Well, sir, I can tell you, I haven't had this discussion 
with General Kiyani----
    The Chairman. I know you haven't.
    General Zinni. But I have with General Musharraf, actually, 
about a year ago. And this was one of his primary priorities, 
and he was speaking in his military hat, at the time, that he 
saw this as critical--this entire inherited British system of 
security structure, that's been allowed to sort of atrophy, in 
terms of scales, revitalizing it through training and building 
its capability, and obviously through the equipping and other 
necessary things.
    So, I think, again, I haven't spoke to General Kiyani, but 
I think the military would welcome anything that relieves them 
of a duty that finds them in places where they're not welcome--
they're seen as much as outsiders as we would be, or others, to 
a large degree.
    The third area, which I think should get a lot of 
attention--and maybe we are the only ones who can do this--is a 
common, mutually supporting border security system. The Afghans 
and the Pakistanis obviously have issues on border security, 
they have different systems, as far as I can determine, I heard 
complaints from the Pakistanis of biometric cards being ripped 
up by the Afghan guards, this lack of connection or 
cooperation, it seems to me we should be the bridge for 
insisting--since we deal with both of them, and it's in their 
interest and we have the relationships, that we have to reach a 
common system of border security----
    The Chairman. I agree.
    General Zinni. And it's not just the technical aspects--
whether it's biometric cards or cameras or whatever it is--not 
just the technical things that are important to the border 
security, but again, the training for border security, and 
what's necessary to make that happen.
    If you can effectively control as much of the border as you 
can, leveraging all of the technology and the commonality of 
systems, and then you couple that with local training, then, I 
think, you go a long way to solving some of the issues and 
problems we've had here.
    And again, it's another way of measuring where our dollars 
go. Obviously, we can see it, in function, on the border.
    The Chairman. Can we ask our friends who are legitimately 
making their point--can you hold the signs down so people 
behind you can see? I don't mind seeing the signs, but people 
behind you can't see. So, it's kind of like in the movie 
theater, you know? Or hold them way, way up, whatever you do, 
but let people behind you see, OK?
    And, please, I've been really good to you all, don't be 
smart guys, OK, or I'll have you kicked out of the room, OK?
    Now, last point I'd like to raise with you, General, was 
the point raised either by Senator Cardin or Menendez, I'm not 
sure who it was, and that is, is there any doubt in your mind 
where the central front for the war on terror is?
    General Zinni. No.
    The Chairman. Where is it?
    General Zinni. It's on the border between Pakistan and 
Afghanistan at this time.
    The Chairman. And I was going to--I didn't want to 
interrupt, but I was going to remind our administration 
panelists who--you know, I understand their position--but 
that's also the answer that our Iraqi Ambassador gave, and that 
General Petraeus gave when they sat before us. When asked, 
``You get a chance to wipe out al-Qaeda Mesopotamia, or al-
Qaeda along the Afghan-Pakistani border, what do you choose?'' 
There was silence for a minute and they said, well that's--I 
don't know the exact phrase--that's a no-brainer, Afghanistan-
Pakistan. I wish we'd get off this diversion about--well, 
anyway.
    So, I thank you.
    Ambassador, I have questions for you, a couple of them I'm 
going to submit in writing in the interest of time, but let me 
just say to you, I remember when you got there. You were dealt 
a very difficult hand. Within a month or so--within a month 
after you got there, 9/11 occurred, you found yourself in a 
very tough position, you handled yourself admirably. Including 
when I arrived there, shortly thereafter to head into 
Afghanistan over the objections of some of the administration, 
because I was flying in the U.N. flight, they initially 
wouldn't let me into Afghanistan, and you were so gracious, you 
had a lunch for me, and then on my return you had to explain to 
General Musharraf why I couldn't make a meeting, because I was 
grounded in Kabul.
    So, I'm sorry I put you through that, thank you for that 
hospitality.
    Let me yield to my colleague.
    Senator Lugar. Well, thank you very much, Mr. Chairman. 
Both of you have mentioned the importance of legislation that 
we are talking about today, the scale of it, that I think it 
was you that said, General Zinni, is transformative, 
potentially, and that would have an impact on Pakistanis, 
generally, that might be perceived by the people.
    But you also mentioned there are 160 million people, it's a 
very large country, and a very diverse country. Let me just ask 
both of you from your experience, the amount of money being 
suggested in legislation, the $1.5 billion a year, is a sizable 
amount of money, the 10-year timeline, which you've mentioned, 
is important, in terms of longevity of this, as opposed to an 
off-again, on-again situation.
    But, given the size of the country, the extraordinary 
problems that we just touched upon in the educational system, 
for instance, with the first panel, quite apart from other 
services, this is still a very small amount of money, with 
regard to millions of people and the services.
    And furthermore, the measurement of the impact, I would 
agree if persons believe that a large number of people have 
received a good level of education, that there have been 
results in terms of human lives and achievement, this is 
tremendously important. But we're having difficulties in this 
country with the No Child Left Behind evaluations, as to 
whether we are making perceptible gains with large sectors of 
the population, in many States, and we're spending a lot of 
money. There's no doubt about the commitment of the teachers in 
the classrooms. But, the process of moving on in this respect, 
is extraordinarily difficult.
    Now, you understand that, of course. And all things 
considered, if you were trying to transform Pakistan, you would 
say you need much more money, much more commitment. On the 
margins--I'm just trying to gain some idea of whether--even 
with this larger commitment--the public appearance, or public 
diplomacy aspect of this are likely to change substantially.
    I just threw out, anecdotally, at least one optimistic 
view. My friend, Dr. Peter Armacost, has been head of Foreman 
College for several years, and the advances there have been 
substantial, in terms of hundreds of new students. There is a 
small contingent of Christian students, a very large 
contingent, obviously, of Muslim students, of various parts of 
that faith, who have, in fact, been studying together. Dr. 
Armacost was President of Eckhardt College in Florida, other 
institutions in our country, prior to his retirement, but has 
gone back, literally, in a missionary effort, and this has been 
recognized by USAID, and given some support.
    So, at least, anecdotally, in my own experience, because I 
visit with my friend who comes back to Washington annually, and 
has visits at the State Department that this is possible.
    But, I also wonder how this transformative effect does 
occur on a sustained basis--quite apart from an earthquake, a 
flood, a catastrophe, something that certainly centers the 
attention of the population on our participation. Even then, as 
you've both said in one way or another, that we also want 
transparency, and so do the Pakistanis.
    And as a matter of fact, though we want to have results 
that can be perceived, but at the same time, the Pakistanis 
abhor conditionality--that is, some benchmarks, measurements, 
audits, something of that sort--which will have to be as part 
of this, as diplomatically as possible, over a sustained period 
of time.
    As both of you know, the Congress cannot appropriate money 
for 10 years in advance. So, we're probably going to have 
several hearings of this committee during each of the 10 years, 
or some committee, and it may be different people dealing with 
it in the future. People come and go in our politics--some who 
were there at the beginning, and some didn't understand how we 
ever got started with this situation.
    So, this is going to have to have some degree of 
transparency for the American people. So, can you give some 
guidance as to how this might work? Why you have some 
confidence that the billion and a half--and that's not all of 
the program, but it's a central focus of our thoughts today, 
because it's big and it has 10 years associated with it--why 
this makes a difference?
    General Zinni. Well, I would make several points, Senator 
Lugar.
    First of all, I think that the agreed and the requirement 
for transparency is essential. If the funds are provided, the 
resources are provided, and it doesn't materially impact down 
where we want it, and it should impact, then I think it will 
actually have a negative effect, it will be seen that we're 
just feeding into what may be a corrupt system, or a system 
that doesn't allow what we want to build down there.
    I go back to the point that Ambassador Chamberlin made, 
that we need to focus on the end-state. And insist that what we 
provide is deliverable in the end-state. If it's school, then 
the focus is that the resources go, in a measured way, to what 
those schools become, and what they are, and how they're 
sustained.
    Senator Lugar. What if democratically elected officials 
don't like our objectives? That they just say, ``We don't like 
your programs, and after all, we're in charge.''
    General Zinni. Well, I would go back to one thing that was 
said in the previous panel about flexibility. I think we ought 
to look at working with them and where, in things that, and 
obviously--I go back to my experience in Vietnam. As a marine, 
I went into a village one time, and saw these immaculate, 
beautiful pig sties that we had built with aid money. And the 
people were living in them, because they were better than their 
houses.
    And, you know, I think we've got to understand that the 
Pakistanis should have some obvious input--responsible input--
as to what's best for the people, we should work together on 
this.
    At the same time, it's our funds and our resources, we need 
to ensure that it goes to where we feel it's best suited, but I 
think this is a partnership and this is something that we build 
together. And I think there are mechanisms that Ambassador 
Chamberlin would know far better than I, within Pakistan, that 
could allow us to work on these--determine these goals or these 
end-states, in working together.
    Let me say something else about what I think would be the 
exponential benefit, beyond just the money. I've worked with 
several American companies in the past several years that were 
interested in doing business in Pakistan, but very hesitant, 
for all kinds of reasons. And when I brought them there, and at 
one time, when the economy was improving, and measures were 
taken to clean up some of the corruption and the transparency, 
the Minister of Finance had an excellent reputation, I began to 
see more interest--not only from American companies, but from 
other companies.
    In one case a telecommunications contract was being bid on, 
and I saw European, and Middle Eastern companies and others in 
there--I think if we're working with a long-term objective to 
stability, and put a marker down for that, and it begins to 
show some progress, you could get this benefit from outside 
investment, and those maybe willing to maybe work and help us 
from another sector. I think Pakistan's a viable market, in 
many ways.
    The third point I would make is we keep focusing on the 
importance of this strategic design--this masterful one that, I 
believe, you've come up with on Pakistan, but let me tell you, 
because I've always had a regional perspective for my job--this 
is going to send a message to the rest of the region, that we 
are not transactional, and we're not one-off on our own needs. 
We are stepping back and taking a broader strategic view. I 
think that's going to get the attention beyond Pakistan, may 
even help with burden- sharing in Pakistan from those parts of 
that region--especially if you go a little further west into 
the gulf--that have the capital.
    So, I think there's ways to leverage this for much--even 
greater benefit than what the money amounts may be.
    Ms. Chamberlin. If I might just add a few points to the 
points of General Zinni, who I totally agree with--look, we 
can't do it all. We can't come in and hope to completely fix 
Pakistan--it's Pakistan who must fix Pakistan. But we can come 
in, in targeted, very focused ways, to assist them in areas 
where we agree together, we can work together on. So, we 
shouldn't be all-comprehensive.
    I'd like to recall a--the Gallop poll has just conducted 
a--spent $20 million, conducted a poll over every Muslim 
country in the world, they covered nearly--they claim to have 
covered a reach of about 90 percent of the people in the Muslim 
world, and the most striking result, observation that they came 
up with is that Muslims throughout the world think that the one 
thing, the one measure that the United States could take that 
could most dramatically change our image in the Muslim world, 
is to respect Islam.
    We don't need to go into Pakistan or any place in the world 
with all of the answers. And we do need to go in and say, 
``'You've got to do it this way, or we're going to cut off our 
funds.''
    We can go in and I think your legislation presages this, 
and say, ``Look, we're going to work with you, we're going to 
sit down and decide what you need, how to do it together.''
    Mark Ward was talking earlier about the community approach, 
I think that's the right approach, and incidentally, that's 
new. AID, in the past, had not been doing it that way, so that 
is a departure, and it's worth building on.
    And we can work with the Pakistanis to develop, but very 
clearly define, what it is, the result that we want to achieve, 
and not--as we had in the past--how much money do we want you 
to give to us? It's, ``What do we want to achieve with that 
funding?'' And if--if those, as we--you, this committee, 
reviews from time to time, the program there, if certain 
programs are not achieving the result that we had collectively 
defined for the Pakistanis, you don't have to cut the funds 
off, but you can divert it to another project. You can divert 
it to another method of trying to achieve that result.
    That still preserves a commitment for the future, and a 
commitment for working together, but it allows the flexibility 
of, ``Look, we're learning as we go, too, if there's a NGO that 
is taking too large of an overhead bite out of the apple, but 
is not producing, shift to another distributor of the aid 
assistance, do it another way.''
    But, you can have some consistency to the program, and that 
will be what's important to the Pakistanis, and that will show 
respect.
    Senator Lugar. Thank you very much.
    The Chairman. Let me--thank you, Senator.
    Let me make a concluding comment, here, and I'll invite 
Senator Lugar, if he wishes to do the same.
    First of all, thanks again for being here, and thanks for 
your strong support--it makes a difference.
    Quite frankly, when this legislation was drafted, from my 
perspective, at least, the most important thing was to change 
the dialogue. To make the number big enough, to make it 
immediate enough, with the democracy dividend, that I found it 
very interesting. I discussed it with the leaders of the 
Pakistani People's Party, with the Pakistani Muslim League, and 
in PML-Q, and it was an interesting reaction.
    It wasn't so much about the number, but the number was big 
enough to get their attention that, ``Maybe you really mean 
this.'' It's generated incredible editorial comment throughout 
Pakistan. I think from all sources--correct me if I'm wrong--
favorable. I mean, warring factions, politically warring 
factions that, maybe this is a change of attitude.
    And so, one of the thoughts I had about the numbers was 
quite frankly less the number than demonstrating, it's a 
significant increase, and long term. And I don't--my hope is 
that it won't just be generated, the attitude of a large 
country, as large as Pakistan, it's not going to be generated 
through AID signs up on walls. My hope is that part of it will 
be generated just by, in the political culture that America has 
changed its attitude, less with the number, but big enough to 
get their attention.
    The second thing I observed is, with the slowdown in the 
Pakistani economy, it matters to the incoming coalition that 
there is actually money to do these things. Because they are 
finding themselves in more difficulty, in terms of not being--
having, they're worried about not being able to deliver. 
Because one thing, for the former Finance Minister, and for 
awhile there, under Musharraf, that was sort of the Faustian 
bargain, things were getting a little bit better, economically.
    And the last point I'll make is, I hope that it does, is 
that in my discussions, at least, with our friends around the 
world, that there will be--if this attitudinal change occurs, 
and it's not going to be easy, and it's not going to be 
overnight--there is a greater instinct on the part--there's a 
lot of other countries who have an investment in the stability 
of Pakistan, starting with our European friends, and our 
Japanese--there's a real interest in that happening.
    So, I kind of view this, not as the total number, but as a 
catalyst. The number's big enough, hopefully, to start a 
catalytic reaction here, but you know, I must admit to you, I 
really don't know. I've just been surprised at the degree to 
which it's been embraced by so many corners, including so many 
of our colleagues, when Senator Lugar talks about it, when I 
talk about it, and I think it has less to do with the money, 
than it does the fact that money indicates a seriousness of the 
underlying purpose of changing the relationship. I hope that's 
the case.
    And, but, you know, lots of times our hopes are not 
realized here, and I think Senator Lugar and I have been around 
long enough to be pretty hard-nosed, practical about, even this 
is no guarantee, by any stretch of the imagination.
    But, I thought I'd just state that to you all, at least to 
speak for myself, only, that I've come away from my years here, 
is the worst thing to do with any program, whether it's 
``dealing with the drug problem,'' or ``dealing at home,'' or 
``dealing with foreign assistance abroad,'' is to over-promise. 
So, I don't--I just hope this is something that generally kick 
starts a change in attitude, here, and in Pakistan, as a 
consequence, affects private enterprise, investment, as well as 
our friends.
    Speaking of friends, you've both been great friends of this 
committee, we truly appreciate it. I warn you, you have not 
heard the last of our requests to you, because we respect you 
so much, so unless--if you have a comment, Senator.
    Senator Lugar. I just thank the witnesses.
    The Chairman. We are adjourned, thank you.
    [Whereupon, at 12:25 p.m., the hearing was adjourned.]

                                  <all>

</pre></body></html>
